Report No. DODIG-2012-026           November 23, 2011




              Air Force Can Improve Controls
                Over Base Retail Inventory
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AFB                           Air Force Base
AFGLSC                        Air Force Global Logistics Support Center
AFMAN                         Air Force Manual
ANG                           Air National Guard
DIFM                          Due In From Maintenance
LRS                           Logistics Readiness Squadron
MAJCOM                        Major Command
NSN                           National Stock Number
WCF                           Working Capital Fund
                                    INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500



                                                                              November 23, 2011

MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               AIR FORCE DIRECTOR OF LOGISTICS, DEPUTY
                 CHIEF OF STAFF/LOGISTICS, INSTALLATIONS
                 AND MISSION SUPPORT

SUBJECT: Air Force Can Improve Controls Over Base Retail Inventory
         (Report No. DODIG-2012-026)

We are providing this report for your information and use. Air Force controls over base retail
inventory were generally adequate, but the Air Force can improve those controls. Specifically,
our detailed testing identified deficiencies in inventory record accuracy, completion of required
physical inventories, completion and retention of documentation supporting inventory
adjustments, and physical storage practices. Inventory control deficiencies can limit the
Air Force’s ability to effectively and efficiently manage its inventory and to provide optimal
support to the warfighter. We considered management comments on a draft of the report in
preparing the final report.

The Air Force Deputy Director of Logistics, Deputy Chief of Staff/Logistics, Installations, and
Mission Support comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




                                                  Amy J. Frontz, CPA
                                                  Principal Assistant Inspector General
                                                   for Auditing
Report No. DODIG-2012-026 (Project No. D2010-D000FR-0160.000)                    November 23, 2011

                  Results in Brief: Air Force Can Improve
                  Controls Over Base Retail Inventory
                                                               showed that personnel can make improvements.
What We Did                                                    Specifically,
We evaluated the controls over Air Force base                     • 3 bases visited and 13 additional bases
retail inventory stored at sites in the contiguous                    did not complete required physical
United States.                                                        inventories for 39,441 item records, with
                                                                      inventory valued at $117.7 million;
                                                                  • 10 bases did not always properly
What We Found                                                         complete and retain documentation
Air Force retail inventory records were                               supporting inventory adjustments; and
generally accurate at 71 bases but personnel can                  • 8 bases did not always maintain
make improvements. Specifically,                                      adequate physical storage of inventory
    • system records for 44,155 of the                                items.
       759,387 national stock numbers included
       in the inventory accuracy testing                       The inventory control deficiencies resulted from
       population had quantity discrepancies;                  inadequate oversight. Inadequate inventory
       and                                                     controls can increase the risk of theft or
    • $5.2 billion of base retail inventory was                mismanagement of inventory assets and can
       misstated (overstated and understated)                  negatively affect mission operations.
       by $77.3 million. *
                                                               What We Recommend
Separate testing at the Westhampton Air
National Guard base identified inventory                       We recommend that the Air Force Director of
quantity discrepancies with $11.4 million of                   Logistics, Deputy Chief of Staff/Logistics,
their $32.5 million inventory value.                           Installations and Mission Support:
                                                                   • Provide all bases that store inventory
These conditions occurred because personnel                            details on the primary causes for
did not always process inventory transactions                          inaccurate inventory records that this
promptly and accurately, perform accurate                              audit identified.
counts, and maintain adequate control over                         • Improve oversight over the completion
items stored at supply points and maintenance                          of required physical inventories, the
shops. Inventory record discrepancies can limit                        preparation and retention of
the Air Force’s ability to effectively and                             documentation supporting inventory
efficiently manage its inventory and to provide                        adjustments, and storage practices.
optimal support to the warfighter.
                                                               Management Comments and
Air Force inventory controls were generally                    Our Response
adequate, but deficiencies at 13 of 24 bases
                                                               The Air Force Deputy Director of Logistics,
visited and analysis of records for other bases
                                                               Deputy Chief of Staff/Logistics, Installations,
                                                               and Mission Support comments were fully
*
                                                               responsive to all recommendations. Please see
 These results are based on statistical projections. See
                                                               the recommendations table on the back of this
Appendix B for details on the statistical sampling
methodology and analysis.                                      page.

                                                           i
Report No. DODIG-2012-026 (Project No. D2010-D000FR-0160.000)   November 23, 2011

Recommendations Table

         Management                   Recommendations      No Additional Comments
                                     Requiring Comment              Required
Air Force Director of Logistics,   None                   A.1, A.2, B.1, B.2, and B.3
Deputy Chief of Staff/Logistics,
Installations and Mission
Support




                                            ii
Table of Contents

Introduction                                                                1

      Audit Objectives                                                     1
      Air Force Inventory Management                                       1
      Inventory Management Policy                                          2
      Testing Inventory Record Accuracy                                    3
      Air Force Internal Controls Over Inventory                           3

Finding A. Inventory Record Accuracy Testing Showed Discrepancies          4

      Scope of Inventory Accuracy Review                                   4
      Record-to-Floor Testing Showed Quantity Discrepancies                5
      Floor-to-Record Testing Showed Quantity Discrepancies                5
      Site Visit to Westhampton Air National Guard Revealed
       Significant Inventory Record Discrepancies                           6
      Reasons for Inaccurate Inventory Records                              7
      Impact of Inaccurate Inventory Records                               10
      Air Force Recently Initiated Efforts to Improve Retail
       Inventory Oversight                                                 10
      Recommendations, Management Comments, and Our Response               11

Finding B. Inventory Controls Can Be Improved                              12

      Inventory Controls Reviewed                                          12
      Completing Required Physical Inventories On Time                     13
      Completing and Retaining Documentation Supporting
        Inventory Adjustments                                              14
      Properly Storing Inventory Items                                     18
      Detailed Testing Showed Item Identification, Location, and General
        Warehousing Deficiencies                                           19
      Air Force Oversight of Inventory Controls                            21
      Impact of Control Program Deficiencies                               22
      Recommendations, Management Comments, and Our Response               22

Appendices

      A.   Audit Scope and Methodology                                     24
      B.   Statistical Sampling Methodology and Analysis                   28
      C.   Summary of Additional Air National Guard Sites Visited          33
      D.   Air Force Physical Inventory Process                            35
      E.   Memorandum on Westhampton Air National Guard Site
            Visit Results and Air National Guard Response                  38
Table of Contents (cont’d)

Management Comments

     Department of the Air Force   47
Introduction
Audit Objectives
The overall objective of the audit was to evaluate the controls over Air Force Working
Capital Fund (WCF) inventory. Specifically, we evaluated the physical inventory control
program and related inventory sampling plans. 1 The audit focused on Air Force base
retail inventory stored at sites in the contiguous United States. See Appendix A for the
scope and methodology.

Air Force Inventory Management
Air Force WCF activities support the Air Force mission by providing maintenance
services, weapon system spare parts, base supplies, and transportation services. Supply
management activities procure and manage inventories of spare parts required to support
mission requirements. Inventory is tangible personal property held for sale, in the repair
process for sale, or for use in the production of goods or in the provision of services for a
fee.

The Air Force reported a $28.1 billion net inventory value on its FY 2010 WCF Financial
Statements. Air Force inventory includes weapon system consumable and reparable
parts, base supply items, and medical-dental supplies. Air Force inventory consists of
two primary categories: wholesale inventory that Defense Logistics Agency distribution
depots generally store and retail inventory that Air Force and Air National Guard (ANG)
bases generally store. Bases use the Air Force Standard Base Supply System (System) to
electronically maintain WCF retail inventory records.

The Air Force structure includes 11 Major Commands (MAJCOMs). 2 Each MAJCOM
has responsibility for various Air Force units, which include wings and squadrons. The
Air Force Global Logistics Support Center (AFGLSC) is an Air Force Materiel
Command subordinate unit that serves as the Air Force supply chain manager. It
administers the majority of Air Force WCF supply chain processes, technologies, and
resources and manages materiel and its distribution. In FY 2010, AFGLSC initiated an
inventory control and recovery initiative to monitor base-level retail inventory adjustment
losses.

Individual bases store, manage, and control retail inventory, and the responsible units
report to their respective MAJCOMs. At the base level, Logistics Readiness Squadrons
(LRS) are the retail supply managers for the Air Force inventory. At most bases,
Air Force personnel perform the LRS warehouse operations and the LRS commander is
the accountable officer. The LRS Physical Inventory Control section is responsible for
centralized execution of inventory functions, which include preparing inventory


1
  The Air Force does not use a sample plan to conduct physical inventories of its base retail inventory but
instead requires all items to be inventoried at least once annually. See Appendix D for details.
2
  See Appendix A for a list of the MAJCOMs responsible for the sites visited during the audit.


                                                      1
schedules, conducting all physical inventories, managing reconciliations, performing
research, and adjusting or correcting System records so that the record balance reflects
the quantity of property on hand.

The System inventory record has unique identifiers. The national stock number (NSN) is
a 13-digit stock number that DoD organizations use to identify items. For example,
NSN 1630-01-182-6267 identifies a wheel used on an aircraft landing gear while
NSN 2840-01-472-6455 identifies an augmenter duct used in an aircraft engine.

The System inventory record for an NSN can consist of multiple detailed records (called
“details”) that identify the specific locations where each item with that NSN are stored.
For example, a NSN with a total System record balance of eight inventory items can have
multiple individual details as follows:

   •   five items stored in a warehouse;

   •   one item stored at a supply point, which is a separate storage facility located on or
       off base and close to the activity it is supporting;

   •   one item stored in a mission support kit, which is a mobile container that can be
       easily shipped to support deployed units or aircraft; and

   •   one item stored at a base maintenance shop.

See Appendix D for a detailed description of the Air Force retail inventory process,
including System record details and the physical inventory process.

Inventory Management Policy
DoD Manual 4000.25-M, “Defense Logistics Management System,” provides guidance
on the DoD inventory controls. The purpose of the DoD physical inventory control
process is to:

   •   ensure that DoD organizations properly execute materiel accountability;

   •   ensure that DoD organizations maintain accurate property accountability records
       for the physical inventory in support of customer requirements and readiness and
       perform physical inventories, location surveys, and reconciliations;

   •   identify and help resolve problems in supply system work processes affecting
       property accountability records by performing quality control of the work
       processes; and

   •   identify repetitive processing errors and maintain accurate System records by
       researching and reconciling property accountability record imbalances and
       potential discrepancies.



                                             2
Air Force Manual (AFMAN) 23-110, volume 1, part 1, “Basic Air Force Supply
Procedures,” chapter 6, “Physical Inventory and Inventory Adjustments,” provides
guidance on Air Force inventory controls and requires that all supply and equipment
items in storage be subjected to an inventory count at least once a year. In addition to the
annual physical inventory, Air Force policy requires more frequent inventories for certain
item categories. For example, items coded as classified or sensitive must be inventoried
semiannually. The policy also specifies that the process of taking inventory involves
counting the physical property, comparing the count to the record balance, and adjusting
or correcting records so that record balance and quantity of property on hand are
identical. To achieve this condition it is important that counters do not have information
that will make them aware of the quantity of assets on record before the physical count.

Testing Inventory Record Accuracy
The audit included tests to evaluate the accuracy of Air Force retail inventory records.
The primary test involved validating the quantity balances on System inventory records
by physically counting all inventory items at all storage locations. This “record-to-floor”
test involved a statistical sample of NSNs. A secondary test involved recording the
item information at a given storage location and validating the NSN, on-hand quantity,
and physical location to the System record. This “floor-to-record” test involved a
non-statistical sample of storage locations.

Air Force Internal Controls Over Inventory
Internal control weaknesses with the Air Force inventory record accuracy and inventory
controls existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control
Program (MICP) Procedures,” July 29, 2010. Inaccurate Air Force retail inventory
records existed because personnel did not give attention to detail and did not always
process inventory transactions promptly and accurately, perform accurate physical
inventory counts, and maintain adequate control and accountability over items stored at
supply points and maintenance shops (Finding A). In addition, Air Force lacked
adequate oversight to ensure that inventory personnel completed required physical
inventories, prepared and retained documentation supporting inventory adjustments, and
maintained proper physical storage practices (Finding B). A copy of the report will be
provided to the senior official responsible for internal controls in the Air Force.




                                             3
Finding A. Inventory Record Accuracy
Testing Showed Discrepancies
Air Force retail inventory records were generally accurate at 71 bases but Air Force
personnel can make improvements. Specifically, record-to-floor testing showed:

    •    System records for 44,155 of 759,387 NSNs included in the inventory accuracy
         testing population had quantity discrepancies, and

    •    $5.2 billion of base retail inventory was misstated by an absolute value
         (overstatements and understatements) of $77.3 million. 3

In addition, floor-to-record testing at 20 of the 71 bases showed System records for 41 of
607 locations, containing inventory valued at $25 million, had quantity discrepancies
with an absolute value of $0.2 million. Separate testing at Westhampton ANG base
identified quantity discrepancies with $11.4 million of their $32.5 million inventory
value. The ANG initiated corrective actions at this site during the audit. 4 The inaccurate
Air Force inventory records and misstated values existed because personnel did not give
attention to detail and did not always:

    •    process inventory transactions promptly and accurately (15 bases visited),

    •    perform accurate physical inventory counts (6 bases visited), and

    •    maintain adequate control and accountability over items stored at supply points
         and maintenance shops (8 bases visited).

Inventory record discrepancies can limit the Air Force’s ability to effectively and
efficiently manage its inventory and to provide optimal support to the warfighter.
Inaccurate inventory records can also negatively affect the accuracy of Air Force
financial reports. The Air Force recently initiated efforts to improve retail inventory
oversight.

Scope of Inventory Accuracy Review
Assessing inventory record accuracy involved testing at 24 bases and a combination of
statistical and non-statistical samples of NSNs and storage locations. The primary
sample included 20 bases statistically sampled from a population of 71 bases, each with
an inventory value greater than $15 million, and involved record-to-floor tests on a
statistical sample of 4,750 NSNs. While conducting record-to-floor testing at the


3
  These results are based on statistical projections. See Appendix B for details on the statistical sampling
methodology and analysis.
4
  See Appendix E for the October 2010 memorandum we issued to the ANG Director of Logistics
regarding Westhampton ANG and for details on the corrective actions completed in February 2011.


                                                      4
20 sites, we also selected 607 locations throughout warehouses, supply points, and
maintenance shops using non-statistical methods for floor-to-record testing. A secondary
sample included three non-statistically selected ANG sites, each with an inventory value
less than $15 million, and involved record-to-floor tests on a statistical sample of
900 NSNs and floor-to-record tests on a non-statistical sample of 86 locations. 5 Before
selecting these 23 sample sites, we visited Westhampton ANG base and conducted
record-to-floor and floor-to-record testing on a non-statistical sample of NSNs and
locations.

Record-to-Floor Testing Showed Quantity Discrepancies
Record-to-floor testing results showed Air Force base retail inventory records to be
generally accurate but personnel can make improvements. Specifically, record-to-floor
                                       testing showed System records for 44,155 of
   Record-to-floor testing showed      759,387 NSNs, valued at $5.2 billion, contained
    System records for 44,155 of       quantity discrepancies with an absolute value
      759,387 NSNs, valued at          (overstatements and understatements) of
   $5.2 billion, contained quantity    $77.3 million. Physical inventories on the sample
   discrepancies with an absolute      NSNs showed discrepancies between System
     value (overstatements and         record balances and physical count quantities. If
         understatements) of           the physical count quantity was less than the
             $77.3 million.            System record balance, we categorized the variance
                                       as a shortage. If the physical count quantity
exceeded the System record balance, we categorized the variance as an overage. For
example, at a maintenance propulsion shop, we counted 16 items for one sample NSN,
but the System record showed only 12. Base personnel could not explain why the four
items, valued at $1.1 million, were not included on the System record, but they did
correct the System record balance.

Floor-to-Record Testing Showed Quantity Discrepancies
Floor-to-record testing results showed Air Force base inventory records to be generally
accurate but personnel can make improvements. Specifically, the testing showed System
records for 41 of 607 locations, with total inventory valued at $25 million, contained
quantity discrepancies with an absolute value of $0.2 million. Table 1 provides a
breakout of the floor-to-record quantity discrepancy overages and shortages.

                Table 1. Floor-to-Record Testing Quantity Discrepancies
    Discrepancy Type         Number of Discrepancies      Value of Discrepancies
    Quantity - Overage                  28                       $ 99,223
    Quantity - Shortage                 13                        114,250
     Total (Absolute)                   41                       $213,473



5
 The testing results at the three ANG sites were similar to the results of the primary sample. See Appendix
C for details.


                                                    5
While conducting record-to-floor testing, we also made non-statistical selections of
locations throughout the warehouses, supply points, and maintenance shops and
performed floor-to-record tests by recording the item information and validating the
NSN, on-hand quantity, and physical location to the System record. Discrepancies
between System record balances and physical count quantities resulted in quantity
overages and shortages. For example, for a large crated item at an outside storage area,
the System record showed an on-hand inventory balance of zero for the item’s posted
NSN. Research revealed that in January 2008, site personnel had not properly processed
a receiving transaction for this $45,000 item so the System record did not properly reflect
its on-hand balance and location.

Site Visit to Westhampton ANG Revealed Significant
Inventory Record Discrepancies
The Westhampton ANG base had significant inventory record discrepancies. 6 The
System records for 14 of 127 NSNs tested had quantity discrepancies, including
                                       4 shortages and 10 overages, with a total variance
    The System records for 14 of       of $11.4 million. The variance was substantial for
        127 NSNs tested had            one item, an air probe assembly. The System
      discrepancies, including         record identified Westhampton as having
    4 shortages and 10 overages        87 assemblies valued at $11.2 million.
       with a total variance of        Westhampton did not have any air probe
            $11.4 million.             assemblies on hand and personnel told us that an
erroneous transaction had been processed several years earlier but had not been corrected.
The $11.2 million represented a substantial portion of the Westhampton ANG’s
$32.5 million total inventory balance. In October 2010, we issued a memorandum to the
ANG Director of Logistics summarizing our Westhampton ANG test results.

In December 2010, the ANG Director of Logistics responded that National Guard Bureau
logistics personnel would assemble a team of senior materiel management experts for a
site visit to Westhampton ANG base in January 2011. The team would conduct a
wall-to-wall inventory, improve deficient processes, provide training, identify strengths,
and document concerns of Westhampton ANG personnel. The ANG Director of
Logistics intended that the team would help accurately reset the account’s inventory,
develop a new inventory schedule to encompass all assets, and strengthen through
training potentially deficient areas.

The team of experts completed their site visit in February 2011. Their inventory count
resulted in 287 item record adjustments with a gross value of $461,084. In addition, the
team helped re-establish processes by conducting hands-on training in documenting
inventory adjustments, delinquent document register management, warehouse
validations, and equipment management. They attributed the Westhampton deficiencies
to a short-staffed work force, their lack of experience, training, and attention to detail,


6
  AFGLC concerns regarding unusual inventory adjustment activity at Westhampton ANG prompted our
site visit, which took place before our visits to the 23 sample sites.


                                                6
and to neglected processes, including failure to make timely corrections for identified
errors. See Appendix E for the memorandum on Westhampton ANG inventory control
deficiencies and the ANG Director of Logistics’ response, including a summary of
corrective actions.

Reasons for Inaccurate Inventory Records
Inaccurate inventory records existed because personnel did not always process inventory
transactions timely and accurately, perform accurate physical inventory counts, or
maintain adequate control and accountability over items stored at supply points and
maintenance shops. Overall, the discrepancies resulted from personnel not giving
attention to detail when performing inventory-related tasks.

Processing Inventory Transactions Promptly and Accurately
At 15 bases, inaccurate item record balances existed because personnel did not process
inventory transactions promptly or accurately. Specifically, LRS personnel:

    •   did not post turn-in and receipt transactions to the System promptly or posted
        them using the wrong NSN, and

    •   did not physically ship material when processing shipment transactions or did not
        select the correct NSN or quantity for shipment.

AFMAN 23-110, volume 2, part 2, chapter 10, “Physical Asset Management,” outlines
the general receiving procedures specifying that when units receive property, personnel
are to open the container and compare the NSN, unit of issue, 7 and quantity on the
documents to the actual property received. Personnel are then to process the receipt
transaction into the System and store the material in its applicable location. Personnel
did not always comply with these requirements. For example, a physical inventory of
augmenter ducts found three, valued at $1.9 million, that personnel had not entered in the
System record. In July and August 2010, personnel received these items from a different
base but they did not properly record the receipts. Therefore, the System did not
accurately reflect the items during our September 2010 physical inventory.

AFMAN chapter 10 specifies that when the System generates an issue transaction,
warehouse personnel are to take immediate action to move the items from stock and
deliver them to the customer. If they do not, a variance can occur between the System
record balance and the physical on-hand quantity. For example, in August 2010, the
physical inventory of a power control assembly, valued at $431,218, identified one in
location, but the System record balance was zero. Research showed that in March 2009,
personnel processed a shipment in the System, but no one pulled the item from its
location and shipped it. Personnel need to process inventory transactions promptly and
accurately.


7
 The unit of issue identifies the means used to buy and ultimately issue materiel to customers. Depending
on the item, unit of issue may be quantity, physical measurement, container, or shape of the item.


                                                    7
Performing and Recording Accurate Physical Inventory Counts
Inaccurate item record balances existed at six bases because personnel did not always
perform accurate physical inventory counts. AFMAN chapter 10 provides guidance on
the physical inventory process. Personnel conducting the physical inventories are
required to physically count all items in a given location. When the count is complete,
personnel enter the results into the System and the System compares the physical count
quantity and the item record balance. If a variance exists and cannot be resolved through
recounts and research, personnel update the System record balance. 8 However, if LRS
personnel do not follow proper physical inventory count practices, they can erroneously
adjust the System record balance. For example, a physical inventory count (in length) of
radio frequency cable was 50 feet less than the System record balance. Air Force
personnel showed that the variance was associated with a prior physical inventory that
had not been performed properly, which resulted in an erroneous adjustment of 50 feet to
the system record balance. Personnel need to perform proper physical inventory counts.

Accounting for Inventory at Supply Points and Maintenance
Shops
Inaccurate item record balances existed at eight bases because LRS personnel did not
always maintain adequate control and accountability over items stored at supply points
and maintenance shops. AFMAN chapter 10 specifies that regardless of unit
responsibility for a supply point, the LRS maintains overall accountability and must
follow standard supply procedures, including an annual inventory. LRS personnel should
properly perform physical inventories by counting all items for a given NSN without
knowing of the System record balance beforehand. Proper inventory counts conducted
under our observation revealed variances between the System record for items stored at
supply points and maintenance shops and the actual on-hand quantities.

Supply Points
LRS personnel did not always ensure that unit personnel maintained adequate
accountability for inventory stored at supply points. Supply points are additional
warehouses located in or next to the units they support and can be located off base.
The inventory items stocked in a supply point are specifically related to the needs of
the supported activity. If LRS personnel do not perform proper physical inventories at
supply points, record imbalances may go undetected. For example, a physical inventory
of a disk drive unit at a supply point identified seven on hand but the System record
showed a balance of eight. LRS personnel research showed that supply point personnel
had shipped the item to another base in 2008, but the shipment was not properly
processed in the System. Subsequent physical inventories did not catch the discrepancy
because the LRS personnel who performed the inventories did not gain access to the
secured installation to physically perform the inventory but instead trusted the supply
point personnel to count the items. LRS personnel need to perform proper physical
inventories at supply points and count all items for each NSN.


8
 The System record balance automatically adjusts when a second count matches the initial count for
uncontrolled items with variances less than $1,000.


                                                   8
Maintenance Shops
LRS personnel did not always ensure that unit personnel maintained adequate
accountability for inventory stored at maintenance shops. Maintenance shops are the
various repair facilities responsible for maintaining portions or components of the base
aircraft and equipment. Maintenance shop inventory generally consists of reparable
items in test and repair. Maintenance personnel often send repaired items back to LRS
for reissue. They might also use collocated supply points for storage.

Air Force uses the “due in from maintenance” (DIFM) process to account for inventory
that maintenance shops hold for repair. This process applies to all reparable items
removed from an end item, such as an aircraft or radar for repair. Maintenance personnel
should establish a DIFM record (a “detail” record) in the System to track the removed
item through the repair cycle. LRS personnel use the Repair Cycle Asset Management
List (D23 report) to monitor the daily status and location of each DIFM detail, focusing
on the time the asset is outstanding and undergoing repair. LRS personnel also conduct
inventories of DIFM items.

Because LRS personnel focused on the D23 report to track DIFM items, they may not
have always been aware of additional inventory items that the maintenance shops had on
hand. For example, a physical inventory at an aircraft engine maintenance shop revealed
                                      several items that were not shown on the System
  The physical inventory revealed     record. The System record included DIFM details
   seven intake cowlings on hand      for two intake cowlings. A physical inventory of
      that personnel should have      the sample NSN revealed seven intake cowlings on
      recorded as inventory; this     hand that maintenance personnel should have
    created a total overage of five   recorded as inventory; this created an overage of
    items, valued at $3.4 million.    five items, valued at $3.4 million. Maintenance
                                      personnel explained that several years earlier, their
shop had obtained five engines from the Aircraft Maintenance and Regeneration Center;
they dismantled the engines for usable parts, such as intake cowlings. However, LRS
personnel had not ensured that the maintenance shop properly accounted for the items in
the System and did not identify them during previous physical inventories.

Air Force personnel also inconsistently managed aircraft wheels at wheel and tire
maintenance shops. Aircraft wheels are reparable inventory assets, and personnel should
use the DIFM process to account for them. At four bases, wheel and tire shops had more
aircraft wheels on hand than the System record showed. For example, one shop had
157 landing gear wheels on hand valued at $1.4 million. However, the System record
balance showed only 54, creating an overage of 103 wheels, valued at $941,272. LRS
personnel acknowledged inventory accuracy problems with aircraft wheels because the
wheels are a high demand item. LRS personnel need to perform proper counts when they
conduct physical inventories at supply points and maintenance shops for each NSN.




                                             9
Impact of Inaccurate Inventory Records
Inventory record discrepancies can limit the Air Force’s ability to effectively and
efficiently manage its inventory and to provide optimal support to the warfighter.
Inaccurate inventory records can also negatively affect the accuracy of Air Force
financial reports.

Accurate inventory records improve supply chain management and benefit the
warfighter. Management and other decision makers need to know how much inventory is
on hand and where it is located to make effective supply decisions. Physical controls and
accountability can reduce the risk of undetected theft or loss, shortages of critical items,
and unnecessary purchases of items already on hand. Shortages and overages, whether
caused by inaccurate records or misplaced items, can lead to delays and inefficiencies in
providing inventory to the warfighter.

Inaccurate inventory records can also negatively affect the accuracy of Air Force
financial reports. The retail inventory data populates a portion of the inventory amounts
Air Force reports on its WCF financial reports and inaccurate data can affect the accuracy
of those reports. In addition, the Air Force is working on a major information system
upgrade to improve its logistics processes. The Expeditionary Combat Support System is
scheduled to begin replacing existing legacy systems, including the Standard Base Supply
System, in July 2012. Air Force Expeditionary Combat Support System Program Office
officials told us that their teams performed assessments at several Air Force bases and
also identified data integrity issues with the System inventory records. The officials
stressed the importance of inventory record accuracy and that quality data is essential to
their business transformation effort. The Expeditionary Combat Support System
implementation team explained that the four primary data elements that need to migrate
accurately for precise inventory records are the NSN, condition code, quantity, and
location.

Air Force Recently Initiated Efforts to Improve Retail
Inventory Oversight
In FY 2010, AFGLSC developed an inventory control and recovery program. Before this
initiative, the Air Force did not have an oversight process in place above the base level to
monitor base retail inventory adjustments.

The LRS accountable officer at each base is responsible for monitoring inventory
adjustments monthly. In FY 2010, AFGLSC began obtaining and analyzing Air Force
retail inventory-loss adjustments. AFGLSC collected inventory data and developed a
reporting matrix. Specifically, its objective is to evaluate monthly retail inventory
adjustment data to analyze trends, identify potential focus areas, and collaborate with the
MAJCOMs to improve the inventory control process. In January 2011, AFGLSC sent
out its first reporting matrix to Headquarters Air Force and the MAJCOMs on the
calendar year 2010 inventory loss adjustment activity and submits the matrix quarterly.




                                            10
The MAJCOMs are responsible for researching potential issues and coordinating with the
units under their chain of command. We believe that the AFGLSC oversight initiative is
a positive step in improving controls over Air Force retail inventory.


Recommendations, Management Comments, and Our
Response
A. We recommend that Air Force Director of Logistics, Deputy Chief of
Staff/Logistics, Installations, and Mission Support provide details on the causes of
inaccurate inventory records that this audit identified to Logistics Readiness
Squadron personnel at all Air Force and Air National Guard bases that store
Air Force retail inventory. The information should be used to develop or refine
base level instructions to specifically address:

               1. prompt and accurate processing of inventory turn-in, receipt, and
       issue transactions; and

              2. conducting and processing physical inventory counts without
       knowing the System record balance, emphasizing on inventories of items
       stored at supply points and maintenance shops.


Management Comments
The Deputy Director of Logistics, Deputy Chief of Staff/Logistics, Installations, and
Mission Support concurred with the recommendations and agreed to communicate the
audit results to all Air Force Logistics Readiness Squadrons at Active, Guard, and
Reserve bases. In addition, the Deputy Director stated that the audit results will be
discussed at the semi-annual Air Force Logistics Readiness Board. The Deputy Director
also stated that the establishment of the new Logistics Readiness Squadron Quality
Assurance Program along with Logistics Compliance Assessment Program and Inspector
General inspections will ensure compliance with Air Force policy.

Our Response
The comments from the Deputy Director are responsive, and the planned actions meet the
intent of the recommendations.




                                          11
Finding B. Inventory Controls Can Be
Improved
Air Force inventory controls were generally adequate but deficiencies at 13 of 24 bases
visited 9 and analysis of inventory records at other bases showed that Air Force personnel
can make improvements. Specifically:

    •    personnel at 3 bases visited and at 13 additional bases did not complete required
         physical inventories for 39,441 item records, with inventory valued at
         $117.7 million;

    •    personnel at 10 bases visited did not always properly complete and retain
         documentation supporting inventory adjustments; and

    •    personnel at 8 bases visited did not always maintain adequate physical storage of
         inventory items.

In addition, record-to-floor and floor-to-record tests also showed item identification,
location, and general warehousing deficiencies. The control deficiencies occurred
because the Air Force lacked adequate oversight to ensure that inventory personnel
complied with specific policy requirements. As a result, Air Force personnel did not
always provide efficient stewardship of their inventory. Inadequate inventory controls
can increase the risk of theft or mismanagement of inventory assets and can negatively
affect mission operations. The Air Force established an LRS Quality Assurance Program
in FY 2011 to improve the controls over its inventory.

Inventory Controls Reviewed
We reviewed inventory controls during visits to 24 bases by analyzing various inventory
control documentation, interviewing LRS personnel, and making general observations
during record-to-floor and floor-to-record testing. The audit focused on these inventory
controls: physical inventories, inventory adjustment support, and storage practices.
Air Force personnel generally maintained adequate inventory controls; we did not
identify any significant deficiencies. Personnel generally completed their physical
inventories, completed and maintained required documentation, and maintained
organized storage areas. However, improvements can be made in areas where personnel
did not always comply with existing Air Force policy. See Appendix A for additional
details on the scope and methodology for assessing inventory controls.




9
  A total of 13 individual bases visited are listed in Tables 2-6 of this section as having at least one type of
inventory control deficiency. Some bases are listed in more than one table if multiple types of deficiencies
were identified.


                                                       12
Completing Required Physical Inventories On Time
Air Force personnel did not always complete required physical inventories in accordance
with Air Force policy. End-of-year FY 2010 retail inventory System records for
121 Air Force bases (AFBs) and ANG bases in the contiguous United States showed that
personnel at 16 bases did not complete a physical inventory for 39,441 item records, with
inventory valued at $117.7 million. These 16 bases had more than twice the average rate
of overdue inventory records. 10 Of the 16 bases, 14 were ANG, 3 of which were
included in the site visits for this audit. Table 2 details the count, percentage, and value
of total inventory records and overdue inventory records of the 16 bases.

        Table 2. Bases with a Significant Number of Overdue Physical Inventories
                                          Records                          Inventory
                                         Overdue              Inventory       Value
                                            for     Percent     Value       Overdue
           Base Name         Records Inventory Overdue (Million)            (Million)
     Garden City ANG            8,039        6,087    76%        $18.4        $16.8
     New Orleans ANG            6,802        4,511     66         30.0         22.5
     Bradley ANG                3,869        2,234     58         11.0          9.3
     Volk Field ANG             3,257        1,722     53          7.6          6.1
     Mansfield ANG*             5,612        2,338     42          9.3          4.7
     Holloman AFB              23,973        9,858     41         55.3         18.1
     Salt Lake City ANG         6,011        2,181     36         16.1          9.4
     Westhampton ANG*           3,943        1,335     34         21.5          7.2
     Dannelly Field ANG         5,283        1,691     32          9.9          0.9
     Fort Worth ANG*            2,573          809     31          9.1          5.4
     Middletown ANG             6,219        1,955     31          6.4          2.9
     Charleston ANG             3,168          757     24          8.9          1.5
     Peoria ANG                 5,316          909     17         11.2          3.6
     Travis AFB                20,763        2,494     12         93.6          5.2
     Standiford Field ANG       2,139          254     12          8.4          2.0
     Nashville ANG              2,726          306     11          9.7          2.2
      Total                   109,693       39,441     36%     $326.1        $117.7
*Designates a site visited during the audit.

AFMAN chapter 10 requires a complete physical inventory of all supply inventory items
in storage at least once per year, depending on the category of the item. According to
Headquarters ANG Materiel Management Policy and Procedures personnel, the complete
physical inventory requirement became effective in May 2008. Although the annual


10
  The average rate of overdue inventory records was 5 percent; we considered a 10 percent or higher rate
of overdue inventory records as significant.


                                                   13
requirement exists, there is no Air Force-wide oversight to ensure that LRS personnel at
all bases are meeting it. The M32 report, “Monthly Base Supply Management Report,”
contains information on the number of items with a date of last inventory exceeding
180 or 365 days. However, it is up to the LRS personnel at each base to monitor this
report and to ensure that they complete the required inventories.

Air Force management’s lack of oversight contributed to LRS personnel not completing
the required physical inventories. Specifically, no one monitored the Air Force base
personnel to ensure completion. For example, Westhampton ANG personnel did not
complete a physical inventory of all supplies in their custody during FY 2009 because
they used a sample inventory methodology to identify and select items for physical
inventory. The end-of-year FY 2010 retail inventory System records confirmed that
personnel at Westhampton ANG did not complete a physical inventory of all supplies in
their custody again in FY 2010. Oversight above the individual base level is necessary to
ensure that personnel complete the required physical inventories in accordance with
Air Force policy.

Completing and Retaining Documentation Supporting
Inventory Adjustments
LRS personnel at 10 of 24 bases 11 did not always properly prepare or retain the following
documentation to support inventory adjustments in accordance with Air Force policy:

     •   inventory adjustment vouchers,

     •   monthly “Consolidated Inventory Adjustment Document Register” (M10 report),

     •   monthly “Monthly Base Supply Management Report” (M32 report), and

     •   analyses of inventory adjustment and discrepancy trend data.

Preparing, Certifying, and Retaining Inventory Adjustment
Vouchers
LRS personnel at six Air Force and ANG bases did not always properly prepare, certify,
or retain inventory adjustment vouchers as documentation to support inventory
adjustments. Table 3 breaks out the inventory adjustment vouchers not prepared or not
certified by base.




11
   A total of 10 individual bases are listed in Tables 3-6 of this section as having at least one instance where
LRS personnel did not properly prepare or retain inventory adjustment documentation. Some bases are
listed in more than one table if multiple types of documentation were not prepared or were in error.


                                                      14
              Table 3. Summary of Inventory Adjustment Voucher Analysis
                             Inventory Adjustment       Inventory Adjustment
            Location        Vouchers Not Prepared       Vouchers Not Certified
     Fort Worth ANG                    X                          X
     Mansfield ANG                     X
     Scotia ANG                        X
     Tulsa ANG                         X
     Westhampton ANG                   X
     Whiteman AFB                                                 X

According to AFMAN chapter 6, an inventory adjustment voucher is required to obtain
relief from property accountability and to justify adjusting the inventory and accounting
records to the inventory on hand. 12 The MAJCOMs are responsible for determining the
specific format and data needed to document research actions (including discrepancies
and corrective action) in the voucher. The policy also states that the appropriate officials
must certify and approve the adjustments and are required to sign the inventory
adjustment vouchers to authenticate them. DoD Manual 4000.25-M specifies that
personnel are required to retain inventory adjustment vouchers for at least 2 years for
audit capability purposes.

The ANG MAJCOM had not issued any specific guidance related to supporting inventory
adjustments and had not formally developed an inventory adjustment voucher form for
consistent use at ANG bases. ANG base personnel inconsistently prepared and retained
                                      documentation supporting inventory adjustments,
    Personnel did not consistently    were unaware of the policy requiring them to
     prepare and retain inventory     document the inventory adjustments, and
   adjustment vouchers. For those     misinterpreted policy on supporting
    inventory adjustment vouchers     documentation. For example, Fort Worth ANG
   that personnel did prepare and     personnel did not consistently prepare and retain
      retain, no one certified and    inventory adjustment vouchers. For those
       approved the vouchers by       inventory adjustment vouchers that personnel did
              signing them.           prepare and retain, no one certified and approved
                                      the vouchers by signing them. The inventory
adjustment voucher form that Fort Worth ANG personnel used was not an official
MAJCOM form and did not contain blocks for the appropriate signatures. As a result of
this audit, Fort Worth ANG issued an internal memorandum on the inventory adjustment
voucher authentication policy to require the signatures of both the certifying and
approving officials.




12
     This requirement applies only to controlled items or adjustments that exceed certain dollar thresholds.


                                                       15
Preparing and Certifying Consolidated Inventory Adjustment
Document Registers (M10 Reports)
LRS personnel at seven bases did not always properly prepare, sign, or retain the
“Consolidated Inventory Adjustment Document Register” (M10 report). Table 4 lists the
bases that did not always prepare or properly sign the monthly M10 reports.

               Table 4. Summary of Monthly M10 Report Analysis
                       M10 Report Not   M10 Report Not      M10 Report Not
       Location           Prepared          Signed          Properly Signed
 Fort Worth ANG                                                   X
 Langley AFB                                                      X
 Mansfield ANG               X                 X
 Nellis AFB                                    X
 Scotia ANG                  X                 X
 Tulsa ANG                                     X
 Westhampton ANG                               X                  X

According to AFMAN 23-110, volume 2, part 2, chapter 5, “Batch Mode Processing
Procedures, Daily, Monthly, Quarterly, Semiannual, and Annual Reports and Listings,”
the monthly M10 report is used to evaluate the accuracy of the inventory records and to
identify areas where adjustments are being made. DoD Manual 4000.25-M requires
personnel to retain the inventory adjustment reports, such as the monthly M10 reports, for
at least 2 years for audit capability purposes. In addition, according to AFMAN
chapter 10, appropriate officials are required to sign the monthly M10 report to certify
and approve the adjustments listed. According to AFMAN 23-110, volume 2, part 2,
chapter 2, “Organization and Responsibilities,” and chapter 10, the LRS Commander is
the appropriate official responsible for approving and signing the monthly M10 reports.

LRS personnel did not always comply with the DoD and AFMAN policy. For example,
personnel at Fort Worth ANG acknowledged confusion as to who should be signing the
monthly M10 report, which led to inconsistency in its preparation. LRS personnel at
other bases either did not prepare the M10 reports or the LRS Commander did not always
sign them.

Retaining Monthly Base Supply Management Reports
(M32 Reports)
LRS personnel at three bases did not always retain the M32 report, “Monthly Base
Supply Management Report.” According to AFMAN chapter 5, LRS personnel are
required to update the monthly and cumulative inventory accuracy records to provide
data for analysis of the overall operational effectiveness, potential problem area
detection, and statistical data through the preparation of monthly M32 report.




                                           16
DoD Manual 4000.25-M requires personnel to retain inventory transaction and
adjustment reports, such as the monthly M32 reports, for at least 2 years for audit
capability purposes.

LRS personnel at Eglin AFB, Langley AFB, and Mansfield ANG did not always comply
with these policies. For example, Eglin AFB personnel acknowledged that they only
retain the prior month’s M32 report. The M32 report not only contains data on inventory
adjustments but also contains information on the number of items that have a date of last
inventory exceeding 180 or 365 days. Mansfield ANG personnel did not retain the
M32 reports and, as shown in Table 2, they did not complete a significant number of
required physical inventories during in FY 2010.

Preparing Analyses of Inventory Adjustment and Discrepancy
Trend Data
LRS personnel at five bases did not always properly prepare and retain the monthly
inventory and complete analyses making it difficult for them to monitor and ensure
inventory record accuracy. Table 5 shows a break out of the bases where LRS personnel
did not properly prepare monthly inventory and complete analyses.

            Table 5. Summary of Monthly Inventory and Complete Analyses
                       Monthly Inventory   Monthly Inventory      Complete
                         Analysis Not         Analysis Not       Analysis Not
         Location         Prepared         Properly Prepared*     Prepared
     Columbus ANG                                   X
     Eglin AFB                                      X
     Fort Worth ANG           X
     Langley AFB                                                      X
     Mansfield ANG            X                                       X
* Personnel at Columbus ANG and Eglin AFB did not properly prepare the monthly inventory analysis as
they had omitted the trend charts of 6-months’ data.

According to AFMAN chapter 10, personnel are responsible for analyzing inventory
adjustment and discrepancy trend data to assist in monitoring and ensuring inventory
record accuracy. Personnel are required to prepare the monthly inventory analysis of all
monthly inventory adjustments and discrepancies along with trend charts showing at least
6-months’ data. 13 They are also required to prepare a separate complete analysis of all
inventory adjustments and discrepancies semiannually using the most recent 6 months’
data to identify trends and areas of current or potential high loss and recommend adding
controls to prevent inventory errors and loss. DoD Manual 4000.25-M requires personnel
to retain inventory transaction and adjustment reports, such as the monthly inventory and
the complete analyses, for at least two years for audit capability purposes.


13
  The monthly inventory analysis charts and the trend charts may be combined at the discretion of the LRS
accountable officer.


                                                   17
Properly Storing Inventory Items
Personnel at eight bases did not always properly store and maintain inventory items.
Specifically, unorganized storage areas included warehouse, bulk, outside, and kit
storage. In addition, Westhampton ANG personnel did not properly store controlled
inventory items coded as sensitive or pilferable separately from the rest of the inventory
items throughout their warehouse. Table 6 lists the bases and types of storage areas
where inventory was not properly stored.

                Table 6. Bases With Improper Storage Practices
                        Bulk     Outside Warehouse         Kit                Controlled
       Location        Storage   Storage    Storage     Storage                Storage
 Dover AFB                X                    X            X
 Eglin AFB                X                                 X
 Hurlburt Field                                             X
 Langley AFB                        X
 Mansfield ANG                                              X
 Nellis AFB                         X                       X
 Offutt AFB                                                 X
 Westhampton ANG                                                                   X

According to Air Force Joint Manual 23-210, “Joint Service Manual for Storage and
Materials Handling,” personnel should make every effort to arrange and maintain stored
material in the best possible manner. This includes applying proper storage practices to
pinpoint an exact storage location in a simple, easily understood manner to assist in
timely and accurate storage or selection of stock. In addition, AFMAN 23-110,
volume 1, part 1, chapter 19, “Management of Controlled Material,” specifies that
personnel must store controlled material according to the security classification, security
risk, or pilferage controls of the item and ensure controlled inventory items are
safeguarded in appropriate storage facilities.

Warehouse, Bulk, and Outside Storage
Personnel did not always maintain certain warehouse, bulk, and outside storage areas in
an organized manner. For example, at Dover AFB several different NSNs were stored
together within the same warehouse location and other items in bin locations overflowed
into adjacent bin locations. In addition, bulk items stored in the warehouse were
mislabeled and not in their proper location.

Record-to-floor testing at the Langley AFB outside storage area identified
16 discrepancies: 4 quantity discrepancies, 7 location discrepancies, and
5 labeling/identification discrepancies. In addition to our sample items, many of the
other outside storage items were not labeled or the labels were unreadable because of




                                            18
weather damage; this made identification efforts extremely difficult. This occurred
because Langley AFB personnel used paper labels instead of permanent weatherproof
placards on outside storage items.

Kit Storage
Personnel did not always maintain kit storage areas in an organized manner. The System
record for a given NSN can include one or more kit details. These kits (large portable
cabinets) include readiness spares packages, which are prepackaged sets of spares and
repair parts required to support planned wartime or contingency operations for a specified
period. The LRS is responsible for conducting inventories of items stored in kits.
However, the unit that uses the kits for deployment is sometimes responsible for the
day-to-day management of the kits. According to AFMAN 23-110, volume 1, part 1,
chapter 14, “Readiness Spares and High Priority Mission Support Kits,” the activity
responsible for maintaining the kits must ensure that they follow proper inventory
practices.

Personnel did not always arrange and maintain items they stored in kits in the best
possible manner to pinpoint exact storage locations as required by Air Force Joint
Manual 23-210. For example, Hurlburt Field personnel over packed and did not organize
mobility readiness spares kits. Cluttered inventory on multiple shelves and bins had to be
physically removed from the kits for us to locate and identify the items in our sample. In
addition, item identification labels that specified part numbers and kit details were often
located on the back of boxes, which affected the timeliness for properly identifying items.
Personnel need to maintain organized kits to assist in timely and accurate storage,
inventory, and selection of stock.

Controlled Storage
Westhampton ANG personnel stated that they did not store controlled inventory items
coded as sensitive or pilferable separately from the rest of the supply inventory items in
the warehouse. Westhampton ANG had a total of 117 sensitive or pilferable inventory
items valued at $1.4 million. Westhampton ANG officials identified this deficiency in
2007 and acknowledged it as a material weakness in their FY 2010 Annual Statement of
Assurance. Westhampton ANG personnel also stated that the greatest risk of theft in the
LRS warehouse involved pilferable items stored with other items in the warehouse and
not in a separate and controlled storage facility. See Appendix E for details on
Westhampton ANG.

Detailed Testing Showed Item Identification, Location,
and General Warehousing Deficiencies
Record-to-floor tests of the 7,427 System records for the 4,750 sample NSNs and
floor-to-record tests of 607 locations showed 462 item identification, location, and




                                            19
general warehousing deficiencies. 14 To determine whether Air Force personnel
maintained acceptable stewardship of inventory items, we verified additional item record
data. This included determining whether personnel clearly identified items, accurately
located items, and maintained orderly warehouses and storage areas. Table 7 lists the
number and type of discrepancies and the tests that identified them.

              Table 7. Item Identification, Location, and General Warehousing
                              Discrepancies by Test and Type
                               Record-to-Floor        Floor-to-Record      Total
       Discrepancy Type         Discrepancies          Discrepancies   Discrepancies
     Identification                   206                    29             235
     Location                         147                    23             170
     General Warehousing               51                     6              57
      Total                           404                    58             462

Labeling and Identifying Items Properly
Personnel did not properly identify items with a label to show the NSN, warehouse
location, and other identifying information for 235 item records. According to
AFMAN chapter 10, warehouse personnel are to prepare and attach bin labels to storage
racks, bins, shelves, boxes, and drawers to clearly identify items stored in a specific
location. Personnel should clearly label items with a NSN or part number, a condition
code, and a shelf-life code 15 that markedly identifies the expiration date (if applicable).

Storing Items in Proper Warehouse Locations
Inventory items were in locations other than the assigned System record locations for
170 item records. According to AFMAN chapter 10, warehouse personnel are to assign
and maintain permanent warehouse locations for each serviceable item stocked. The
policy also specifies that accurate storage and control of assets is essential to inventory
control and accuracy.

Improving General Warehousing Practices
Personnel did not follow proper warehousing practices for 57 item records. This included
poorly organized locations, certain NSN items mixed with different NSN items, items
spilling into adjacent locations, and poorly packaged items. For example, while
observing the inventory of an electronic receiver, we were initially unable to identify the
item because personnel had removed it from its designated packaging container. The
unmarked receiver was outside on the floor of a metal box physically located on the flight



14
   The 462 discrepancies include some item records that were also identified as quantity errors in
Finding A. Additionally, some records had multiple discrepancies if, for example, they were both located
at an incorrect location and labeled improperly.
15
   Shelf life codes are assigned to items to indicate the number of months a new item may remain in storage
before it requires inspection and possible reconditioning or disposal.


                                                    20
line. We observed other similar receivers encased in foam padding and packaged in
metal or hard plastic containers. Base personnel subsequently re-packaged the part in its
correct container.

Air Force Oversight of Inventory Controls
The inventory control deficiencies occurred because the Air Force lacked adequate
oversight to ensure that inventory personnel complied with specific policy requirements.
Adequate Air Force oversight is essential in providing for the economical and efficient
stewardship of inventory. Improved oversight by LRS, MAJCOM, and AFGLSC
management and personnel will help ensure that strong inventory controls are
maintained.

LRS Oversight
During site visits for this audit, the Air Force had not established its policy on a LRS
Quality Assurance Program. The LRS Physical Inventory Control section is responsible
for centralized execution of physical inventory functions in the LRS in accordance with
Air Force inventory policy requirements. On October 19, 2010, the Air Force issued
Air Force Instruction 20-112, “Logistics Readiness Squadron Quality Assurance
Program,” which became effective for active duty Air Force LRS 90 days after
publication. 16 The LRS Quality Assurance Program provides the Commander and senior
                                          leadership with an assessment of the LRS’s ability
     The LRS Quality Assurance            to perform essential logistics processes. It
      Program should enhance              evaluates the quality of logistics processes and
      oversight of the inventory          performs necessary functions to ensure compliance
         controls that needed             with AFMAN 23-110 along with MAJCOM and
             improvement.                 local logistics’ policies and guidance. The LRS
                                          Quality Assurance Program includes special
inspections to include document control procedures and file plans, housekeeping, and
inventory controls. The LRS Quality Assurance Program should enhance oversight of
the inventory controls that needed improvement.

An Air Force Headquarters official told us that although the LRS policy recently became
effective for active duty LRS operations, the Air Force was still developing standardized
checklists for the LRS Quality Assurance sections to use when conducting their
evaluations. The official stated that our audit results could be beneficial to developing
standardized quality assurance checklists. In addition, ANG MAJCOM personnel stated
that they will be conducting a pilot test of the LRS Quality Assurance Program at
15 ANG bases in FY 2011 to prepare for the implementation at all ANG bases by
October 19, 2011. If properly executed, the LRS Quality Assurance Program can
improve the Air Force inventory control deficiencies that this audit identified.




16
 All reserve and contracted LRS operations must be in compliance within 180 days of publication. All
ANG LRS are exempt for one year after publication.


                                                  21
MAJCOM and AFGLSC Oversight
The MAJCOMs did not exercise adequate oversight to ensure that base personnel
completed required physical inventories and prepared and retained documentation
supporting inventory adjustments in accordance with Air Force policy. As discussed in
Finding A, AFGLSC began analyzing Air Force retail inventory loss adjustments in 2010
and developed a reporting matrix to analyze trends and identify potential focus areas, and
collaborated with the MAJCOMs to improve the inventory control process. AFGLSC
personnel told us that they were not aware of any established oversight role to review the
date of the last physical inventory in the System to ensure that all required physical
inventories are completed on time in accordance with Air Force policy. AFGLSC
personnel stated that they could easily perform the monitoring on the status of the date of
the last physical inventory and include an analysis of the information as part of their
quarterly reporting matrix to the MAJCOMs. Air Force-wide oversight will help ensure
that personnel at Air Force and ANG bases complete the required physical inventories in
accordance with Air Force policy. In addition, the MAJCOMs should exercise better
oversight and coordinate with the bases under their chain of command to ensure that base
personnel are aware of Air Force requirements for documenting and retaining support for
inventory adjustments.

In September 2011, AFGLSC provided data showing that as a result of this audit they
developed a methodology for analyzing and reporting delinquent required physical
inventories. AFGLSC provided a new chart on delinquent physical inventories that they
include in their quarterly inventory report matrix to Headquarters Air Force and the
MAJCOMs. Specifically, the chart displayed the number and associated inventory value
of the System records with a date of last inventory exceeding 365 days for each
MAJCOM.

Impact of Control Program Deficiencies
Inventory control deficiencies limit the Air Force’s ability to provide for efficient
stewardship of its inventory, can increase the risk of theft or mismanagement of inventory
assets, and can negatively affect mission operations. By not adequately preparing and
retaining documentation supporting inventory adjustments, personnel are not properly
obtaining relief from property accountability and proper justification for the inventory
adjustment. In addition, the lack of supporting documentation limits management’s
ability to adequately monitor and ensure the accuracy of inventory records.

Recommendations, Management Comments, and Our
Response
B. We recommend that Air Force Director of Logistics, Deputy Chief of
Staff/Logistics, Installations, and Mission Support:

        1. Establish oversight of all Air Force and Air National Guard locations that
store inventory to require that all physical inventories be completed on time by the
Logistics Readiness Squadron’s Physical Inventory Control section in accordance
with Air Force policy.


                                            22
       2. Direct all Air Force Major Commands to formally coordinate with the
Air Force and Air National Guard bases under their chain of command to ensure
that the bases are aware of Air Force requirements for documenting and retaining
support for inventory adjustments in accordance with Air Force policy. This
coordination should also ensure that the bases are using the appropriate form(s) to
document inventory adjustments and are obtaining the appropriate review and
approval signatures for relief of accountability.

       3. Require that the checklists established as part of the Logistics Readiness
Squadron’s Quality Assurance Program include evaluations of the completion of
required physical inventories, the preparation and retention of inventory
adjustment documentation, and the organization of all storage areas and readiness
spares kits.


Management Comments
The Deputy Director of Logistics, Deputy Chief of Staff/Logistics, Installations, and
Mission Support concurred with our recommendations and stated that the establishment
of the new Logistics Readiness Squadron Quality Assurance Program along with
Logistics Compliance Assessment Program and Inspector General inspections will ensure
compliance with Air Force policy. In addition, the Deputy Director agreed to review and
clarify Air Force policy to ensure that the bases are aware of the appropriate forms to use
for documenting inventory adjustments and are obtaining the appropriate review and
approval signatures for relief of accountability. The Deputy Director also agreed to
discuss the information on inventory adjustment documentation at the semi-annual
Air Force Logistics Readiness Board and the Air Force Maintenance Executive Board.
Additionally, the Deputy Director agreed to ensure that evaluations of the completion of
required physical inventories, the preparation and retention of inventory adjustment
documentation, and the organization of all storage areas and readiness spares kits are
included in the Inspector General and Logistics Compliance Assessment Program
Material Management checklists, which will drive corresponding changes in the Logistics
Readiness Squadron Quality Assurance checklists.

Our Response
The comments from the Deputy Director are responsive, and the actions meet the intent
of the recommendations.




                                            23
Appendix A. Audit Scope and Methodology
We conducted this performance audit from February 2010 through September 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Audit Universe
Air Force inventory consists of two primary categories: wholesale inventory that Defense
Logistics Agency distribution depots generally store and retail inventory that Air Force
and ANG bases generally store. This audit focused on WCF retail inventory that the
Air Force managed and stored at bases located in the contiguous United States.

The Air Force Materiel Command MAJCOM and its 754th Electronic Systems Group
provided System data files containing retail inventory records. Air Force Materiel
Command personnel provided three populations of retail inventory records. We used:

   •   March 31, 2010, data for planning purposes and to conduct our audit survey
       phase, including selecting a sample for the Westhampton ANG site visit;

   •   June 30, 2010, data to develop our statistical sampling plan (See Appendix B for
       details); and,

   •   September 30, 2010, data to evaluate the timeliness of required physical
       inventories as of the end of fiscal year 2010.

We filtered the three populations to remove records that the Air Force does not account
for as WCF inventory. In addition, we removed a small subset of retail inventory items
from the June and September populations that the Defense Logistics Agency stored and
managed at Tinker AFB, Hill AFB, and Robins AFB. Appendix B describes the
June 30, 2010, population and additional filtering.

Finally, we used the System data to value the records in a way that approximated how the
Air Force values inventory on its WCF financial reports. This included evaluating
inventory at its historical cost as well as discounting the value of some inventory if it was
not in a serviceable condition.

Testing Methodology
At each of the sites where we performed testing, we followed the Air Force methodology
for conducting special inventories and worked with LRS personnel to process
transactions to freeze the records associated with our sampled NSNs. These transactions
delayed new transactions related to our NSNs from being processed until we completed
inventory testing. We obtained listings from the System of the item records and


                                             24
locations and performed our record-to-floor testing by working with personnel on site
to verify the balances as of the day we froze the inventory. During our record-to-floor
testing, we also made non-statistical selections of additional locations to perform
floor-to-record testing. For the floor-to-record testing, we recorded the NSN, location,
and physical count, and compared this information to the System record. We performed
at least 25 floor-to-record tests at each site.

Whenever a variance existed between the System record and what we observed, we
worked with LRS personnel to perform follow-up research to determine if the difference
was due to an error or just normal operations. If an error was the cause, this research also
helped to classify the type of error. A common example of this was determining whether
inventory record quantities were inaccurate, or whether stock was merely located in the
wrong location. We focused primarily on errors related to the quantity of items held, but
also recorded non-quantity errors for items that were not clearly identified and accurately
located or warehouses that were not orderly maintained among other issues.

We did not inventory sample item records with an on-hand balance of zero and no
assigned location, records located at another facility too far away from our sampled base
to reasonably visit, or records in a DIFM status but were still installed on the aircraft or
were in transit. We excluded these records from our results.

We also reviewed documentation and interviewed inventory personnel to better
understand the site’s inventory control program. This included reviewing the physical
inventory schedule, results of past inventories, and documentation for inventory
adjustments as well having inventory personnel walk us through their inventory process.
Specific reports we reviewed included the monthly “Consolidated Inventory Adjustment
Document Register” (M10 report), the “Monthly Base Supply Management Report”
(M32 report), and the “Inventory and Complete Analyses Report.” We evaluated the
documentation and selective inventory controls to ensure that they complied with
Air Force policy.

In addition to specific site visits, we also evaluated System records to assess the
timeliness of physical inventories at 121 Air Force and ANG bases in the contiguous
United States. We evaluated System inventory records to determine how often the
Air Force required items to be inventoried. We then compared this requirement to the
System date showing when personnel last inventoried the items to determine whether the
items were overdue to be inventoried as of the end of FY 2010.

Sites Contacted and Visited
We contacted Headquarters U.S Air Force and the following nine MAJCOMs during the
audit to evaluate inventory record accuracy and related inventory controls: Air Combat
Command, Air Education and Training Command, Air Force Global Strike Command,
Air Force Materiel Command, Air Force Reserve Command, Air Force Space Command,
Air Force Special Operations Command, Air Mobility Command, and the Air National




                                             25
Guard. Specifically, we visited 24 Air Force and ANG bases between July 2010 and
October 2010. The table lists the bases visited, the responsible MAJCOM, and the month
in 2010 that the site visits took place.

                                      Bases Visited
                                                                                Month
            Site                               MAJCOM                           Visited
 Dyess AFB, TX                  Air Combat Command                            October
 Ellsworth AFB, SD              Air Combat Command                            August
 Langley AFB, VA                Air Combat Command                            August
 Nellis AFB, NV                 Air Combat Command                            September
 Offutt AFB, NE                 Air Combat Command                            August
 Luke AFB, AZ                   Air Education and Training Command            September
 Barksdale AFB, LA              Air Force Global Strike Command               August
 Minot AFB, ND                  Air Force Global Strike Command               August
 Whiteman AFB, MO               Air Force Global Strike Command               August
 Eglin AFB, FL                  Air Force Materiel Command                    August
 Hill AFB, UT                   Air Force Materiel Command                    October
 Tinker AFB, OK                 Air Force Materiel Command                    October
 Homestead AFB, FL              Air Force Reserve Command                     October
 Cannon AFB, NM                 Air Force Special Operations Command          August
 Hurlburt Field, FL             Air Force Special Operations Command          August
 Peterson AFB, CO               Air Force Space Command                       September
 Dover AFB, DE                  Air Mobility Command                          October
 Pope AFB, NC                   Air Mobility Command                          October
 Westhampton ANG, NY            ANG                                           June - July
 Columbus ANG, OH               ANG                                           September
 Ft. Worth ANG, TX              ANG                                           October
 Mansfield ANG, OH              ANG                                           September
 Scotia ANG, NY                 ANG                                           October
 Tulsa ANG, OK                  ANG                                           October


Use of Computer-Processed Data
We relied on computer-processed retail inventory data from the Standard Base Supply
System. We used the data to determine the sample of inventory records for our review
and to determine the accuracy of the on-hand inventory balances. We did not test the
general or application controls of the System. However, we performed other tests to
determine the reliability of the System data. Specifically, we determined data reliability



                                            26
by physically observing inventories and performing record-to-floor tests and
floor-to-record tests. In addition, we validated that the retail inventory data comprised
a portion of the inventory balance on Air Force financial reports. We determined that
the retail inventory records were sufficiently reliable to accomplish our audit objectives.

Use of Technical Assistance
We relied on the DoD Office of Inspector General Quantitative Methods and Analysis
Division to develop a statistical sample of Air Force WCF Inventory for our
record-to-floor testing and to project the results of our tests. See Appendix B for details
on the statistical sampling methodology and analysis.

Prior Coverage of Air Force Retail Inventory
No prior coverage has been conducted related to the controls over Air Force WCF retail
inventory during the last five years.




                                             27
Appendix B. Statistical Sampling
Methodology and Analysis
Population
We prepared the population of Air Force WCF retail inventory as of June 30, 2010, for
sampling by excluding records that we determined should not be included, specifically:

   •   records for items stored at sites outside of the contiguous United States, and

   •   records for items stored at the four sites we had already visited during our audit
       survey phase: Shaw AFB, Tyndall AFB, McEntire ANG, and Westhampton
       ANG.

Additionally, inventory records related to the same NSNs at the same location were
combined so that we could sample based upon NSN instead of by the individual
inventory records. The revised population consisted of 145 sites with 1,047,764 NSNs
and inventory valued at $5,847,280,480.

Sample Plan
The DoD Office of Inspector General Quantitative Methods and Analysis Division
provided technical assistance and developed a stratified sample design. The first step
involved dividing the revised population of 145 sites with inventory valued at
$5,847,280,480 into two subpopulations:

   •   71 sites, each with inventory values greater than $15 million, representing
       91 percent of the total inventory with a value of $5,316,585,916.

   •   74 sites, each with inventory values less than or equal to $15 million, with a total
       value of $530,694,564.

The items in both of the subpopulations were classified as either “standard control” or
“additional control.” The “additional control” NSNs were coded in the System as
controlled, meaning that they were designated as sensitive, pilferable, or some in other
manner that required more stringent inventory control. The “standard control” NSNs
were not coded in the System as controlled.

Sample from Sites with Dollar Values Over $15M
For the first subpopulation, we used a two-stage stratified sample design. Because
of the highly skewed data, and based on our professional judgment, we determined
the sample size to be 20 sites. In the first stage, we developed three strata, stratified
by dollar value for the sites. Table B-1 presents these stratifications.




                                              28
        Table B-1 Sample from Sites with Dollar Values Over $15 Million
            $ Value                       Total
 Stratum     Range     Population      Population $    Sample Total Sample $
    1       >$250M           5       $1,705,489,012       5      $1,705,489,012
            >$50M,
    2                       21       $2,396,491,404      10      $1,254,798,588
            ≤$250M
            >$15M,
    3                       45       $1,214,605,500       5       $126,142,197
            ≤$50M
             Totals         71       $5,316,585,916      20      $3,086,429,797

After designing the sample plan, we found that the population also included Defense
Logistics Agency controlled inventory items. Because these items were under
substantially different storage conditions and procedures from items controlled by the
Air Force, these items were removed from the population. The adjusted population is
tabulated in Table B-2.

  Table B-2 Sample from Sites with Dollar Values Over $15 Million Adjusted to
          Remove Items That the Defense Logistics Agency Controlled
            $ Value                       Total
 Stratum     Range     Population      Population $    Sample Total Sample $
    1       >$250M           5       $1,633,802,634       5      $1,633,802,634
            >$50M,
    2                       21       $2,341,560,165      10      $1,230,948,706
            ≤$250M
            >$15M,
    3                       45       $1,214,605,500       5      $ 126,142,197
             ≤$50M
             Totals         71       $5,189,968,299      20      $2,990,893,537

In the second stage, we used a stratified design for each of the 20 sites, stratified by dollar
value ranges for NSNs in the sites. There were 2,250 and 2,500 sample NSNs we
allocated to the standard and additional control populations respectively for a total sample
size of 4,750 out of a total population of 759,387 NSNs.

Sample from Sites with Dollar Values Under $15M
For the second subpopulation, we used a one-stage stratified sample design. We selected
three non-statistical sites with dollar values less than $15M. Using professional judgment
and what-if analysis, we determined a sample size of 450 NSNs from each of the two
control populations, Standard and Additional Control, would be sufficient. Therefore, we
allocated and distributed a total sample size of 900 NSNs among the three sites.
Table B-3 provides the distribution of these sample items.




                                              29
         Table B-3 Sample from Sites with Dollar Values Under $15 Million
          Site           Population        Total Population $     Sample NSNs
    Columbus ANG             6,291            $11,925,006               395
    Fort Worth ANG           2,485            $10,191,091               270
    Mansfield ANG            3,102            $ 9,393,807               235
         Totals             11,878            $31,509,904               900

For each site, the NSNs were stratified into three strata based on the NSN dollar value
ranges. The sample size for each stratum was allocated based on stratum size and the
distribution of the dollar value. The sample results were projected for each site, and
combined for an overall result for the three non-statistical sites.

Statistical Analysis and Interpretation
Based on sample results provided, we calculated the appropriate statistical projections at
the 90 percent confidence level by combining the standard and additional controls
sub-populations.

Statistical Projections for Sites with Dollar Values Over $15M
The information in this section supports the statistical projections for our record-to-floor
testing results discussed in Finding A. We are 90 percent confident that:

   •   the error rate for the book value not equal to the audited value is between
       3.8 percent and 7.8 percent, and the number of errors (quantity discrepancies) is
       between 28,766 and 59,543. Because we sampled NSNs instead of records, these
       figures refer collectively to all records at a site for a given NSN;

   •   the difference when the audited value is less than the book value (quantity on
       hand is less than the System record balance) is between -$46,105,515 and
       -$15,578,911;

   •   the difference, when the audited value is greater than the book value (quantity on
       hand is greater than the System record balance) is between $28,663,309 and
       $64,240,621;

   •   the absolute value of the difference between book value and audited value is
       between $51,385,989 and $103,202,367.

Table B-4 provides details on these projections.




                                             30
       Table B-4 Statistical Projections for Sites with Dollar Values Over $15M
           Book Value Not Equal to Audited Value (Attribute Projection)
                     Lower Bound         Point Estimate         Upper Bound
 Rate (Percent)           3.8                  5.8                    7.8
 Number                 28,766               44,155                 59,543

              Audited Value Less Than Book Value (Variable Projection)
                            Lower Bound            Point Estimate           Upper Bound
    Dollar Value            -$46,105,515            -$30,842,213            -$15,578,911


            Audited Value Greater Than Book Value (Variable Projection)
                            Lower Bound            Point Estimate           Upper Bound
    Dollar Value             $28,663,309             $46,451,965             $64,240,621


       Absolute Value of the Difference Between Audited Value and Book Value
                                 (Variable Projection)
                            Lower Bound            Point Estimate           Upper Bound
    Dollar Value             $51,385,989             $77,294,178            $103,202,367


Statistical Projections for Sites with Dollar Values Under $15M
The information in this section supports the statistical projections for our record-to-floor
testing results discussed in Appendix C. We are 90 percent confident that:

   •    the error rate for book value not equal to audited value (quantity discrepancies) is
        between 1.4 percent and 9.2 percent, and the number of errors is between 167 and
        1,100;

   •    the difference, when the audited value is less than the book value (quantity on
        hand is less than the System record balance) is between -$115,147 and -$31,847;

   •    the difference when the audited value is greater than the book value (quantity on
        hand is greater than the System record balance) is between $55,353 and $61,021;

   •    the absolute value of the difference between book value and audited value is
        between $89,983 and $173,385.




                                             31
Table B-5 provides details on these projections.

    Table B-5 Statistical Projections for Sites with Dollar Values Under $15M
           Book Value Not Equal to Audited Value (Attribute Projection)
                      Lower Bound           Point Estimate          Upper Bound
 Rate (Percent)             1.4                   5.3                    9.2
 Number                    167                    634                  1,100

              Audited Value Less Than Book Value (Variable Projection)
                           Lower Bound             Point Estimate   Upper Bound
    Dollar Value             -$115,147                -$73,497        -$31,847


            Audited Value Greater Than Book Value (Variable Projection)
                           Lower Bound             Point Estimate   Upper Bound
    Dollar Value              $55,353                 $58,187         $61,021


      Absolute Value of the Difference Between Audited Value and Book Value
                                (Variable Projection)
                           Lower Bound             Point Estimate   Upper Bound
    Dollar Value              $89,983                $131,684        $173,385




                                            32
Appendix C. Summary of Additional ANG
Sites Visited
We performed inventory testing at three other ANG sites in addition to the 20 Air Force
and ANG bases we selected using statistical methods. We visited these additional sites to
determine whether the significant deficiencies we identified at Westhampton ANG during
our audit survey phase were isolated or systemic to other ANG bases. These three sites
also supplemented our statistical sample with additional coverage of Air Force sites with
a total inventory value less than $15 million. We used non-statistical methods to select
Columbus ANG, Fort Worth ANG, and Mansfield ANG primarily based on the proximity
of these sites to other audit sites and our audit office. However, we obtained statistical
samples of inventory items at each of those sites from the DoD Office of Inspector
General Quantitative Methods and Analysis Division.

Overall, we did not identify significant inventory accuracy issues similar to those
encountered during our site visit to Westhampton ANG. ANG retail inventory record
balances at the three sites did not always reflect the actual quantity on hand. Specifically,
we performed record-to-floor testing on 900 NSNs with 1,246 associated inventory
records. According to our statistical projections, an estimated 5.3 percent of the NSNs
represented by our sampling had a quantity discrepancy and the absolute value
(overstatements and understatements) of the discrepancies was $131,684. The value of
the inventory population at the three sites we sampled from was $31.5 million. (See
Appendix B for details on the statistical sampling methodology and projections.)

In addition, we determined that the System contained minor inaccuracies for individual
storage locations. Specifically, our floor-to-record testing of 86 locations, containing
inventory valued at $600,116, revealed four records with quantity discrepancies valued at
$34,428. Table C-1 provides details on our testing results in which we compared the
on-hand quantity for selective locations to the System record balance.

            Table C-1. Floor-to-Record Testing Quantity Discrepancies
 Discrepancy Type         Number of Discrepancies       Value of Discrepancies
 Quantity - Overage                  2                         $34,364
 Quantity - Shortage                 2                               64
  Total                              4                         $34,428




                                             33
Our combined detailed tests of 1,332 item records and locations (1,246 records and
86 locations) identified 69 non-quantity discrepancies including whether property was
accurately located, clearly identified, and whether the warehouses and other storage areas
were maintained in an orderly manner. Table C-2 provides a summary of the
non-quantity discrepancies.


                Table C-2. Summary of Non-Quantity Discrepancies
                            Record-to-Floor Floor-to-Record          Total
    Discrepancy Type         Discrepancies   Discrepancies       Discrepancies
 Location                         44                2                 46
 Identification                   21                0                 21
 General Warehousing               2                0                  2
  Total                           67                2                 69




                                            34
Appendix D. Air Force Physical Inventory
Process
The LRS’s are the retail supply managers for the Air Force WCF inventory. The
Physical Inventory Control section in each LRS is responsible for centralized execution
of inventory functions, which include preparing inventory schedules, conducting all
physical inventories, managing reconciliations, performing causative research and
adjusting or correcting records so that the record balance and quantity of property on
hand are identical.

The System inventory record for a particular NSN can consist of multiple details.
Air Force policy specifies that all inventory records, regardless of detail, be subject to a
complete 100-percent inventory count at least once a year. Certain inventory items are
required to be physically inventoried more than once a year. The table contains the
different types of inventory details, a description of the inventory type, and the physical
inventory requirements. If any of the inventory items assigned to the details listed below
are classified or sensitive then a semi-annual physical inventory is required unless a more
frequent physical inventory requirement is already in place.

      System Record Inventory Details and Physical Inventory Requirements
                               Inventory
   Detail Type     Detail    Requirement                    Description
                  Number
 Item Record         101         Annual      Items stored in warehouse locations.
 DIFM                203        Quarterly    A DIFM record is established in the
                                             retail supply system to track the
                                             removed item through the repair cycle
                                             and to ensure assets are repaired,
                                             evacuated, or condemned, as quickly as
                                             possible. Daily coordination with
                                             maintenance production scheduling
                                             will be maintained. The status and
                                             location of each item will be updated as
                                             soon as each applicable maintenance
                                             activity provides the new information.
 Unserviceable       204        Quarterly    Unserviceable items are either repaired
                                             (made serviceable), designated not
                                             locally repairable, or condemned.
                                             Maintenance is responsible for the
                                             items until they are physically returned,
                                             either in a serviceable or unserviceable
                                             condition, to the LRS.




                                            35
 Supply Point           218          Annual        Additional warehouses located in or
                                                   next to the activities they are
                                                   supporting. They may be located on or
                                                   off base and are used to provide more
                                                   timely support.
 Mission                232          Annual        Stored in mobile containers so they can
 Support Kit                                       easily be shipped and relocated to
                                                   support deployed units or aircrafts.
 High Priority          234          Annual        An air-transportable package of
 Mission                                           expendable supplies and repair cycle
 Support Kit                                       assets designed to support a weapon
                                                   system at a deployed location.
 Non-Airborne           237          Annual        Items authorized or stocked in a non-
 Mobility                                          airborne mobility readiness spares
 Readiness                                         package. These are items other than
 Spares Package                                    aircraft, such as communication-
                                                   electronics, vehicles, and bare base
                                                   system items.
 Airborne               239          Annual        Items authorized or stocked in a
 Mobility                                          mobility readiness spares package to
 Readiness                                         support planned wartime or
 Spares Package                                    contingency operations for a specified
                                                   period of time pending resupply.
 War Reserve            240          Annual        Items authorized or stocked for war
 Material                                          reserve material/in-place readiness
 Readiness Spare                                   spares package.
 Package
 War Reserves           241          Annual        Provides visibility and accountability
 Material                                          for those items authorized as non-kitted
 Consumable                                        spares. The record contains authorized
 Distribution                                      quantity, on-hand quantity, location,
 Objective                                         and other pertinent data for each item
 Spares Record                                     authorized in this category.

To conduct complete inventory counts of supplies throughout the year, LRS inventory
personnel prepare an inventory schedule. The inventory schedule is based on the
classification of inventory and the date of last inventory. The scheduled items are frozen
and the “Inventory Count Listing” (R12 report) is produced. The R12 report includes the
NSN, unit of issue, location, and unit price but does not include the on-hand quantity.
Once the R12 report is generated, inventory personnel are ready to start the physical
inventory process. Figure D illustrates the steps involved with the Air Force physical
inventory count process that take place after the R12 report is generated.




                                            36
     Figure D. Air Force Physical Inventory Count Process

        Inventory
        personnel                                                                                 Inventory
         perform                                                                              adjustments made.
          blind                                                                               Documentation and
         counts.                                                                                  high level
                                                                                                  approvals
                                                                                                   required.




                                                           System processes
   Input physical count
                                                           the physical count.
     quantity into the
         System.




                                         Count does
                                         not match.         The NSN must be
                                                               recounted.
                                                                                                      Further
Determine whether physical                                                                         research may
  count matches System                                                                              be required.
        balance.

                                                      The recount is performed in the
                                                       same manner as the original
                                                             inventory count.

      Count matches.


                                                                                                     No reason
Physical count is accepted                                                                         for difference.
  and the freeze on that
                                                              Determine if
 inventory item is lifted
                                                                recount
                                                              matches the
                                                                System
                                                               balance.

                                 Count matches.
                                                                                                     Research
                                                              Count does                             performed
                                                              not match.



                                                                                 Does not match.


                                                              Does NSN fit                        Reason for
      NSN record                                                 into the                      difference found.
     is adjusted to          .                                  System’s
      new count.                  Fits criteria.               “automatic
                                                              adjustment”
                                                                criteria?                           Reasoning
                                                                                                     justified.




                                                   37
Appendix E. Memorandum on Westhampton ANG Site Visit
Results and ANG Response




                                                INSPECTOR GENERAL
                                              DEPARTMENT OF DEFENSE
                                                 400ARMYNAVY DRIVE
                                            ARLINGTON, VIRGINIA 22202-4704



                                                                                                    October 13, 20 I 0

      MEMORANDUM FOR DIRECTOR OF LOGISTICS, U S. AIR FORCE AIR
                       NATIONAL GUARD

      SUBJECT: Actions Are Needed to Correct Internal Control Deficiencies at the Westhampton
               Air National Guard Base (Project No. D2010-DOOOFR-0160.000)

             We are evaluating the internal controls over the U .S. Air Force Working Capital Fund
      Inventory, with a specific focus on the physical inventory control program and related inventory
      sampling plans. During a site visit for this audit, we identified deficiencies in the physical
      inventory control program at Westhampton Air National Guard (ANG) Base. Specifically, we
      noted control deficiencies in the:

                 •   inventory existence and completeness,
                 •   completion of required physical inventories,
                 •   completion and retention of documentation supporting inventory adjustments, and
                 •   physical storage of controlled inventory items.

             We believe that these control deficiencies occurred because Westhampton ANG did not
      adequately establish and maintain a physical inventory control program in accordance with Air
      Force and DOD guidance. As a result, WesthamptonANG did not always provide for the
      economical and efficient stewardship of DOD inventory.

              An inadequate physical inventory control program can increase the risk of theft or
      mismanagement of inventory assets and can negatively impact mission operations. We are
      alerting you to these deficiencies before we complete our audit report so that you may take
      prompt action to correct the internal control deficiencies we identified.

      Inventory Existence and Completeness Testing Showed
      Overages and Shortages
              During our site visit, we performed tests to validate the accuracy of the Westhampton
      ANG inventory records. We performed inventory existence testing on I 00 items by validating
      the accuracy of the Air Force Standard Base Supply System inventory record balance to the
      observed on-hand balance. We obtained the population ofWesthamptonANG inventory records
      and used nonstatistical methods to sample a sufficient number of items that would allow us to
      cover a significant portion of the Westhampton ANG total inventory value. 1 While conducting
      the inventory existence testing, we selected items in various locations throughout the warehouse
      and tested the completeness ofthe inventory records by tracing the item information back to the


      1
          The value of the 100 items sampled represented 75 percent of the Westhampton ANG total inventory value.




                                                                             38
                                                                                                            2

system record. Specifically, we perfom1ed inventory completeness testing on 27 items, 2
selecting stock from unique warehouse locations and validating the stock number, warehouse
location, and on-hand quantity with the system record balance. We identified discrepancies in
both the quantities and warehouse locations. We categori zed the quantity discrepancies as
overages. where the observed on-hand bahmce exceeded the system record bailmce. <Uld
sho1tages, where the observed on-hand balance was less than the system record bal.u1ce.
Overall, we identified 16 items with discrepancies totaling $ 186,0 15 in overages and
$ 11 ,244,900 in sho11ages.

Existence Testing Res ults for 100 Items Showed 8 Discrepancies
        Oftl1e 100 items selected for existence testing, 8 had discrep.u1cies. We noted that five
items had an overage m1d two items had a sho11age. One item had a location discrepancy where
the system record identified one unique warehouse location, but we observed the inventory at
two separate locati ons. Details on our existence testing results are provided in Table I.

                                      Tabl e 1. Existence Testing Results
        Nation al Stock Nwnber                            Description                     Testing Results
            1615-01-383-8992                             Transmission                         Overage
            5821-01-312-3525                     Radio Receiver-Tr<U1smitter                  Overage
            5865-01-535-1515                          Electro-Opt Sensor                      Overage
            66 10-01-490-5168                          Digital Computer                       Overage
            66 15-01-442-1421                         Gyroscope Control                       Overage
            1680-01-255-1334                         Air Probe Assembl y                      Shortage
            8040-00-092-2816                           Paste Adhesive                         Shortage
                                                 Electronic Flight Indication                Location
            66 10-01-391-9282
                                            I             Processor                   I     Discrepancy

        TI1e shortage for the Ai r Probe Assembly was substantial. "!11e system record identified
Westhampton A Gas having 87 assemblies on hm1d valued at $ 11,244,800, which represented
35 percent of the $32,526,068 total Westhampton ANG reported inventory balance. During our
existence testing, we noted that Westh.unpton Ai\!G did not phys ically maintain or store .u1y Air
Probe Assemblies in its warehouse. Westhampton ANG personnel infonned us that they had
erroneously reported the Air Probe Assembl y balance several years em·lier 1md never corrected
the balance. We obtained a system trm1saction history and detennined that Westh.unpton A G
recorded 100 probes in FY 2002, and numerous trm1sactions had decreased the quantity to 87.

       Also during our testing for inventory existence, we saw that Westhampton ANG
personnel did not always input the correct quantities into the system record. After we completed
the phys ical inventories, we obtained system !r<U1saction histories to ensure that Westh.unpton
ANG personnel accurately input the observed on-hand quantities into the system. We noted that



2
    We Ltled nonstatistical method~ to a minimum of25 items per site for inventory completeness testing.




                                                                        39
                                                                                               3

in ventory personnel i11Correctly input the on-band quantity for six items, which resulted in an
erroneous update to the system record balance that required coJTective action.

Completeness Testing Results for 27 Items Showed 8 Discrepancies
       Of the 27 items selected for completeness testing, 8 had discrepancies. We noted five
items bad au overage, 1md oftbese, two items also had a warehouse location discrepancy. Two
items had a sh011age, and another bad a warehouse location discrepancy. Details on our
completeness testing are provided in Table 2.

                           Tabl e 2. Inventor-y Completen ess Results
  National Stock Number                Description                     T esting Results
      5331-01-0 14-4296                  Packing                           Shortage
      5340-01-177-5161                 Loop Clamp                          Shortage
     6515-00- 137-6345             Disposable Ear Plug                     Overage
     6760-01-491-2211             Photo Equipment Case                     Overage
     9150-00-782-2627                    Lube Oil                          Overage
     6260-01-074-4229                Green Chemlite           Overage & Location Discrepancy
     7530-0 1-335-2623              Xerox White Paper         Overage & Location Discrepancy

      5831-00-061- 1577
                              I   Intercommunication Set
                                        Control Box
                                                                          Location
                                                                         Discrepancy

Westhampton ANG Did Not Perform Complete Physical
Inventories, Which Could Persist in Future Years
Physical Inventories for FY 2009 Were Incomplete
        Westhampton ANG personnel did not complete a physical inventory of all supply
materials in their custody and thus did not perfonn adequate stewardship of supply assets in
FY 2009. Air Force Manual 23-110 (AFMAN 23-110), Volume 1, Part 1, Chapter 6, "Physical
Inventory ru1d Inventory Adjustments," ru1d Volume 2, Part 2, Chapter 10, "Phys ical Asset
Mrutagement," req uires the complete physical inventory of all items in storage at least once per
year. Headquruters, ANG Materiel Management Policy and Procedures personnel told us that
this requirement had been in place since May 2008. During our site visit, Westhampton ANG
personnel stated that they were using a srunple inventory methodo logy to identify and select
items for physical inventory during FY 2009 ru1d that they were unaware of the requirement to
conduct a ph ysical inventory of all items in storage at least once per year. In response to
our request for a copy of the FY 2009 warehouse in ventory validation schedule, Westhampton
ANG personnel also stated that they were adopting a new process for scheduling the required
inventory validation for FY 2010.




                                                             40
                                                                                                      4


        Westhampton ANG pers01mel s ta ted that in Septe mbe r 2009, they identified more than
3,600 items that were overdue for a physical inventory, but realized that they would not be able
to perfonu in vento ries for these ite ms because of staffmg limitations. l11e standard phys ical
inventory process for an item involves:

           •    processing a transaction to freeze the system record balance,
           •    conducting a physical inventory count,
           •    researchin g any variances between the ph ysical count and the system record balance,
           •    inputting the results to update the system record balance, and
           •    inputting the date of last inventory upon compl etion of the ph ysical inventory.

         Ins te ad of follow ing the ir sta ndard process, Westhampton ANG personne l attempted to
develo p a batch file that would input a count quantity equal to the system record o n-hand balance
when the ori ginal inventory trans actions were processed. Had the batch process worke d
correctly, the input would update the system record on-hand balance and tl1e date oflast
in ventory field even though Westhm11pton ANG did not actuall y conduct the ph ysical
inventories. However. the batch process contained flaws and resulted in erroneous updates to
system record quantity on-hand balances. For example, the flawed process resulte d in a
$ 100 million fluctuation in the inventory balance in September 2009. During our FY 20 I0 s ite
vis it, Westhmuptou ANG personne l to ld us that they had recentl y identified more til an 30 items
witl1 syste m record balm1ces tl1at were i11Correct as a result of tl1e e rroneous ly-processed batch of
trru1sactions in Septe mbe r 200 9.

Westhampton ANG Is Unlikely to Complete Future
Physical Inventories
        We ru·e concem ed about Westhampton ANG 's ability to mainta in an up-to-date inventory
schedule m1d compl ete a physical inventory of all its items in storage at least once per year. At
the time of our s ite vis it, Westhampto n ANG personnel told us tl1at they were approximately
6 months be hind on the FY 2010 schedule for c ompleting ph ysical inventori es. Westhampton
ANG officials stated that iltsufficient staffmg made it diffi cult to complete the inventories in a
tim ely manner.

Westhampton ANG Did Not Complete and Retain
Documentation Supporting Inventory Adjustments
        During o ur s ite visit, we delennined thai Westhampton ANG personnel did not complete
and retain docume nta tio n supporting inventory adjus tments in accordance with Air Force po licy.
According to AFMA 23- 11 0, Volum e l, Part 1, Chapter 6, an inventory adjtL~tment voucher is
required to obtain re lie f from property accountabil ity and pr<>vide justification for adjusting the
inventory and accounting records to the inventory on handJ Westhampton ANG inventory
personne l infom1ed us U1at U1ey do not use a voucher to process ru1 in ventory adjus tment rutd
that their s upporting documentation for an inventory adjustment consists of research results on
the cause of the adjustment, including a copy of the system transaction history s howing the


3
    This requirement involves controlled items or adj~tments that exceed certain dollar threshold~.




                                                                         41
                                                                                                   5

in ventory adjustment. By not using an inventory adjustment voucher, Westhampton ANG
personnel fai led to obtain relief from property accountability and proper justification for the
inventory adjustment.

        According to AFMAN 23-110, Volume 2, Part 2. Chapter 10, inventory adjustments must
be certified and approved by the appropriate officials. Specifically, the appropriate officials are
required to sign the monthly Consolidated Inventory Adjustment Document Register
(M 10 Repor1) to certify and approve the adjustments listed. For Westhampton ANG, the
Logistics Readiness Squadron Commander is the appropriate official responsible for signing th e
M 10 Reports.

         We requested copies of signed M 10 Reports from Westhm11pton ANG for August 2009
through June 2010. Vhsthampton ANG provided three MlO reports that had a signature oth er
tl11m that oftl1e Squadron Conm1at1der and six unsigned M10 reports. In addition. Westhampton
ANG did not pro vide a copy of theM 10 for one month, and the system did not generate an M 10
report for one month because there were no inventory adjustments. By not completing and
documenting inventory adjustments on the monthly M10 reports, Westhampton ANG did not
ensure that all inventory adjustments were properly certitled and approved by appropriate
officials and that a signed copy oftl1e M10 report was properly maintained for audit trail
purposes. Details on our review of the 11 requested M10 reports are provided in Table 3.

                         Ta ble 3. Review of 11 Req uested MlO Repor1s

           Month             I      Approval Signatu re            I          MlO Repor1
                             I   Inappropr iate    I Unsigned      I Not Req uir·ed I Not Pr'Ovided
       August 2009                                 I X        I                      I
       September 2009                              I X I                             I
      October 2009           I         X           I               I                 I
      November 2009                                I      X        I                 I
      December 2009                                I      X        I                 I
      Jmlllary 2010                                I               I      X          I
       Febmary 2010                                I      X        I                 I
       March 2010            I         X           I               I                 I
       April2010             I         X           I               I                 I
       May20 10                                    I      X        I                 I
      June 2010                                    I               I                 I       X
        Total                          3           I      6        I       1         I       l

Controlled Inventory Items Were Not Properly Stored
        During our site visit, Westhan1pton A.I'\IG personnel infom1ed us that controlled inventory
items coded as sensitive or pilferable were not properly stored separately from the rest of the
suppl y inventory items in the warehotL~e. Westl1runpton ANG officials had identified this
deficiency in 2007 and acknowledged it as a material weakness in their FY 20 I0 Almual
Statement of Assurance.




                                                              42
                                                                                              6



        Westhampton ANG personnel also stated that the greatest risk of theft within the
Logistics Readiness Squadron warehouse involves pilferable items that are stored with other
items in the warehouse and not in a separate and controlled storage facility. Our analysis
identified that Westhampton ANG had a total of 117 sensitive or pilferable inventory
items valued at $ 1,409,245. Because of the numerous control deficiencies we identified during
our audit and the risks associated with sensitive and pilferable items, we believe that it is
important for Westhampton ANG officials to address these deficiencies as soon as possible.

Suggested Corrective Actions
       We suggest that the Commander, Westhampton ANG, conduct a complete assessment of
the Westhampton ANG physical inventory control program and ensure compliance with
Air Force and DOD guidance. At a minimum, the assessment should address the deficiencies we
described in this memorandum, including the:

       •   accuracy of supply inventory records,
       •   completion of required physical inventories,
       •   completion and retention of documentation supporting inventory adjustments, and
       •   physical storage of controlled inventory items.

         We are performing this audit in accordance with generally accepted government auditing
standards and are providing you with these interim results so that you may start taking
appropriate corrective actions. We anticipate issuing a draft and fmal report on the overall audit
results, which will include the issues identified in this memorandum.

        We would like to give you credit in both the draft and fmal reports for any actions taken
in response to this memorandum. Therefore, we request that you apprise us of all corrective
actions you plan to take or have taken to address the suggested corrective actions by
November 12,2010.




                                   ~~~~{
                                    Mark Starinsky
                                       Program Director
                                  Defense Business Operations



Cc: Deputy Director of Logistics, U.S. Air Force Headquarters, DCS!Logistics, Installation &
      Mission Support
    Commander, 1061h Logistics Readiness Squadron, Westhampton Air National Guard




                                                             43
                                NATIONAL GUARD BUREAU
                                       3500 FETCHET AVENUE
                                 JOINT BASE ANDREWS MD 20762-5157




                                                                                10 December 2010

MEMORANDUM FOR DODIIG

FROM: NGB/A4

SUBJECT: Proposed Corrective Actions fo r Internal Control Deficiencies at the
         Westhampton Air National Guard Base (Project No. 02010-DOOOFR-0160.000)
        In response to your memorandum dated October 13, 2010, "Actions Are Needed to
Correct Internal Control Deficiencies at the Westhampton Air National Guard Base (Project No.
D201 0-DOOOFR-0160.000)", 1 have directed NGB/A4R to assemble a team of senior subject
matter experts led by a senior A4R representative. They will travel to Westhampton ANGB in
January 2011 to address the issues identified in the DOD/IG report. The January 2011 time
frame will ensure the unit's readiness spares package is included in the inventory, and to the
maximum extent possible, all of the unit's personnel are present to make the corrective actions
and receive the personalized targeted training.
        The purpose of the site visit is to conduct a wall-to-wall inventory, improve deficient
processes, provide training, identify strengths, and document the unit's concerns. The plan is to
accurately reset the account's inventory, help develop a new inventory schedule that will
encompass all assets rather than just a sample of the assets, and strengthen through training those
areas within the unit that may be deficient. These actions will provide the unit with a starting
point to accurately maintain the supply account and conduct follow on training.

       If




                                                 b£2g
                                                 Director, Logistics




                                                              44
                                   NATIONAL GUARD BUREAU
                                           3501 FETCHET AVENUE
                                    JOINT BASE ANDREWS MD 20762-5157




                                                                                            2 1 March 20 I I


MEMORANDUM FOR DOD/IG

FROM: NGB/A4

SUBJECT : Corrective Actions/Way Ahead for Internal Contro l Deficiencies at the Westhampton Air
National Guard Base (Project No. 02010-DOOOFR-0160.000)

         NG B/ A4 sent a team o f Subject Maner Materiel Management Experts to the I 06th Logistics
Readiness Squadron (LRS) 24 January through 7 February 20 I I to perform a wall-to-wall inventory.
improve deficient processes, provide training, identify strengths, and doc ument unit concerns. During the
visit, personnel from the I 06 LRS were very professional. courteous and eager to Jearn and correct all
findings reported by the Department of Defense Inspecto r General (DOD/IG).

         Per the DOD/IG memorandum of 13 October 20 I 0, Subject: Actions are needed to correct
internal control deficiencies at the Westhampton Air National Guard Base (Project No. D20 I 0-DOOOFR-
0 160.000), " inventory control deficiencies occurred because Westhampton did not adequately establish
and maintain a physical inventory contro l program." During the NGB team 's visit, a wall-to-wall
inventory ensued, including a validation ofRepairables, Serviceable/Unserviceable, assets against the
D23 Repair Cycle Asset Management Report. A total of2 87 item record/detai l adjustments resulted in a
gross correction o f$461 ,084 ($ 129,727 in gains a nd $33 1,357 in losses). T hese corrections are a direct
result of central storage overlooking basic warehousing principles such as conducting regu lar warehouse
validations and fai lure to make timely corrections when stock record errors were identified. In addition to
the wall-to-wall inventory, pi lferablc and sens itive materials were in the process of moving to a vault.
ensuring properly secured assets segregated from the other stock and mitigating future losses.

        Processes were re-established and hands-on t raining conducted to ensure continuity in
compliance; such as retention of documentatio n s upporting invento ry adjustments (specificall y the M I 0
Reports and inventory adjustment vouchers), management of Del inquent Document Register, Delinquent
Shipment Listing, warehouse validations, equipment management, etc. While a great deal of training was
accomplished during the NGB/ A4's team visit, a number o f training opportun ities still exist for 106 RQW
LRS personnel (Ref: Tab 2).

        A number of factors significantly contributing to the defic iencies discovered :
          I.  l'ull-time Manpower for Mate rie l Management is 51% of authorized full-time manning
              levels.
         II.  Lack of experience and training of the fu ll-time staff: 6 personnel have an a verage of 6
              months experience; and another 7 have an average o f 2.3 years experience.
                   a. For example, 25 different personnel have held the WG-6 Material Hand lers
                       position in the wareho use only to vacate the position as soon as a higher pay ing
                       position was found. "
                   b. The remaining Materiel Management personnel attempting to accomplish the
                       added workload oftentimes sacrifice their own compliance and processes,
                       resulting in repeat inspection write-ups.




                                                                  45
         Ill.   Several programs lacked management oversight that could not be explained. Limited
                follow-up visits by SMEs, funded by the 106 RQW, w ith a focus on training
                opportunities will cement the training given by the NGB/A4 team .
         IV.    Attention to detail by all Materiel Management personnel, including Receiving and
                Distribution personnel, is needed.
         V.     Neglected processes - such a s management of the R59 Delinquent Document Register,
                R40 Delinquent Shipment Listing and the MILSTAMP Tracer Reconci liation Listing-
                negatively affected stock management and accuracy.

        Although inventory losses and gains are mostly attributed to the unde rstaffed and inexperienced
personnel assigned to the I 06 LRS, the LRS commander along with the superintendents within Materia l
Management must develop techniques to ensure compliance, such as instituting the new LRS/QA
function. Additionally, full-time Manpower authorizations versus funded employment authorizations
must be reviewed, because current staffing of full -time personnel does not allow for adequate compliance
of regulatory po licies and directives.

         Deficient processes, training and inventory discre pancies noted during the DOD/ !G audit have
been resolved with the exception of the Individual Protective Equipment/Mobi lity Element. Other
inventory discrepancies fo und in the Individual Equipment Element ( lEE) but not identified in the
DOD/lG report are still pending resolution. The rEE remained mostly frozen pending submission of
Repo rt of Surveys and an action plan to manage these items from the I 06 LRS/CC (Ref: Tab I).

        While the NG B/A4 team visit produced positive, tang ible resu lts, the 106 LRS must continue to
strengthen item accountability. The NGB/A4 team gave the 106 LRS a starting point from which they
can accurately maintain the supply account and conduct follow-on training. Continued attention to these
issues will enhance overall operations at the I06 RQW.




                                                     ~~QSAF
                                                       Acting D irector, Logistics

cc: 106 RQW/CC




                                                                 46
Department of the Air Force Comments




                                   DEPARTMENT OF THE A IR FORCE
                                  HEADQUARTERS UNITED STATES A IR FORCE
                                               WASHINGTON, DC

                                                                                               ccr 12 zotr
      MEMORANDUM FOR DEPARTMENT OF DEFENSE
                                   ATTN: _OFFICE
                                           __    OF_ INSPECTOR GENERAL


      FROM: AF/A4L
            1030 Air Force Pentagon Room 4CI065
            Washington, DC 20330

      SUBJECT: DoDIG Project D2010-DOOOFR-0160.000 Draft Report

               Below are specific answers to the recommendations in sections AI, A2, B1, B2, and B3
      of subject report. Overall we concur with the recommendations and will communicate the audit
      results to all AF Logistics Readiness Squadrons (LRSs) at Active/Guard/Reserve bases. After
      review of the recommendations and our policy, we believe ·AFMAN 23-110 (specific references
      below) addresses the problem areas identified by this audit. If current policy had been followed
      then these problems would not have existed. Recent changes in the Materiel Management career
      field (i.e. returning to a fully operational inventory section) along with the stand up of the LRS
      Quality Assurance (QA) program will assist in mitigating these problems.

      Below are responses to each item identified in the audit report (Al, A2, B 1, B2, and B3):

      DoDIG recommendation A- We recommend that Air Force Director of Logistics, Deputy Chief
      of StaftlLogistics, Installations, and Mission Support provide details on the causes of inaccurate
      inventory records that this audit identified to Logistics Readiness Squadron personnel at all Air
      Force and Air National Guard bases that store Air Force retail inventory. The information should
      be used to develop or refine base level instructions to specifically address:

             AI. Timely and accurate processing of inventory turn-in, receipt, and issue transactions.

                    A4L response: Concur. AF/A4L will provide details on the causes of inaccurate
                    inventory records identified in this audit to Logistics Readiness Squadron and
                    Wing level maintenance personnel at all Air Force and Air National Guard bases
                    that store Air Force retail inventory. Additionally, this information will be
                    discussed at the semi-annual Air Force Logistics Readiness Board and the Air
                    Force Maintenance Executive Board (functional governance bodies made up of
                    senior MAJCOM logisticians and maintainers). (ECD: 30 Jan 2012)

             A2. Conducting and processing physical ~nventory counts without knowing the System
             record balance, emphasizing on inventories of items stored at supply points and
             maintenance shops.




                                                                  47
               A4L response: Concur with comment. Current policy listed in AFMAN 23-110,
               Vol2, Pt 2, Ch 10, Attch 10C specifically addresses the conducting and
               processing of physical inventories for all assets loaded in the Standard Base
               Supply System (SBSS), on SBSS accountable supply records. Paragraph 1OC12.4
               specifically addresses Supply Points. The count cards and listings produced to
               conduct these inventories do not have the SBSS record balance on them so the
               inventory personnel conducting the inventory do not know the system balances
              prior to inputting the quantity inventoried. As for inventory requirements for
               items stored in Maintenance shops ...these items are not loaded in the SBSS and
              therefore not covered under the procedures listed above. LRS does not own these
              assets and does not control where they are kept or when they get turned in to the
              LRS to be added to the accountable record. Maintenance accountability
              requirements are addressed inAFI 21 -103 paragraphs 9.9.2.1, 9.9.4, and 9.9.4.1-
              9.9.4.2. Bottomline: We believe there are no policy shortfalls. If the guidance
              contained in AFMAN 23-110 and AFI 21-103 were followed this out of balance
              would not have occurred. This is a compliance issue that needs to be addressed
              through supervisor/command channels. The establishment of the new LRS QA
              program along with Logistics Compliance Assessment Program (LCAP) and
              Inspector General (IG) inspections will ensure compliance with AF policy. (ECD
              30 Mar 12)

DoDIG recommendation B -.We recommend that Air Force Director of Logistics, Deputy Chief
of Staffi'Logistics, Installations, and Mission Support:

      Bl. Establish oversight of all Air Force and Air National Guard locations that store
      inventory to require that all physical inventories be completed timely by the Logistics
      Readiness Squadron's Physical Inventory Control section in accordance with Air Force
      policy.

             A4L response: Concur. AFMAN 23-110, Vol2, Pt 2, Ch 10, para 10.3.5.2
             outlines the timeliness, frequency, and scheduling of inventories. The
             establishment of the new LRS QA program along with Logistics Compliance
             Assessment Program (LCAP) and Inspector General (IG) inspections will ensure
             all AF and ANG locations are in compliance with AF policy. (ECD: 30 Mar 12)

      B2. Direct aU Air Force Major Commands to formally coordinate with the Air Force and
      Air National Guard bases under their chain of command to ensure that the bases are
      aware of Air Force requirements for documenting and retaining support for inventory
      adjustments in accordance with Air Force policy. This coordination should also ensure
      that the bases are using the appropriate form(s) to document inventory adjustments and
      are obtaining the appropriate review and approval signatures for relief of accountability.




2




                                                           48
            A4L response: Concur with comment. AFMAN 23-110, Vol 2, Pt 2, Ch 10, para
            10.3.5.5 and 10.3.5.6lay out the requirement for coordination and signature
            approval for adjustments. There is also the requirement for the accountable
            officer (LRS Commander) to review the Consolidated Inventory Adjustment
            Document Register (Ml O/NGV836) to certify and approve the adjustments listed
            each month. These signed registers are filed in Document Control. At the
           MAJCOM level, IG and LCAP teams conduct inspections to ensure compliance
            with applicable publications. There is no need for MAJCOMs to "formally
           coordinate with the Air Force and Air National Guard bases under their chain of
           command to ensure that the bases are aware of Air Force requirements for
           documenting and retaining support for inventory adjustments in accordance with
           Air Force policy when inspection teams already conduct these types of
           inspections. A4L will review and clarify (if necessary) current policy to ensure
           the bases know/use the appropriate form(s) to document inventory adjustments
           and are obtaining the appropriate review and approval signatures for relief of
           accountability. Additionally, this information will be discussed at the semi-
           annual Air Force Logistics Readiness Board and the Air Force Maintenance
           Executive Board. (BCD: 30 Mar 12).

    B3. Require that the checklists established ·as part of the Logistics Readiness Squadron's
    Quality Assurance program include evaluations of the completion.of required physical
    inventories, the preparation and retention of inventory adjustment documentation, and the
    organization of all storage areas and readiness spares kits.

            A4L response: Concur. A4L will ensure the above items are included in IG and
            LCAP Materiel Management checklists (foundation for the LRS QA program
          · checklists) which will drive corresponding changes in the LRS QA program
            checklists. (ECD: 30 Mar 12)


                                                             --land-
                                         i9!.:-
                                          Deputy Director of Logistics
                                          DCS/Logistics, Installations & Mission Support




3




                                                        49
